<html>
<title> - BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: LONG-TERM FUNDING FOR HIGHWAYS AND TRANSIT PROGRAMS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: LONG-TERM FUNDING 
                   FOR HIGHWAYS AND TRANSIT PROGRAMS

=======================================================================

                                (115-38)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 7, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

30-253 PDF                     WASHINGTON : 2018 

























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
DANIEL WEBSTER, Florida              ALBIO SIRES, New Jersey
JEFF DENHAM, California              JOHN GARAMENDI, California
THOMAS MASSIE, Kentucky              HENRY C. ``HANK'' JOHNSON, Jr., 
MARK MEADOWS, North Carolina         Georgia
SCOTT PERRY, Pennsylvania            ANDRE CARSON, Indiana
RODNEY DAVIS, Illinois               RICHARD M. NOLAN, Minnesota
MARK SANFORD, South Carolina         DINA TITUS, Nevada
ROB WOODALL, Georgia                 SEAN PATRICK MALONEY, New York
TODD ROKITA, Indiana                 ELIZABETH H. ESTY, Connecticut, 
JOHN KATKO, New York                 Vice Ranking Member
BRIAN BABIN, Texas                   LOIS FRANKEL, Florida
GARRET GRAVES, Louisiana             CHERI BUSTOS, Illinois
BARBARA COMSTOCK, Virginia           JARED HUFFMAN, California
DAVID ROUZER, North Carolina         JULIA BROWNLEY, California
MIKE BOST, Illinois                  FREDERICA S. WILSON, Florida
RANDY K. WEBER, Sr., Texas           DONALD M. PAYNE, Jr., New Jersey
DOUG LaMALFA, California             ALAN S. LOWENTHAL, California
BRUCE WESTERMAN, Arkansas            BRENDA L. LAWRENCE, Michigan
LLOYD SMUCKER, Pennsylvania          MARK DeSAULNIER, California
PAUL MITCHELL, Michigan              STACEY E. PLASKETT, Virgin Islands
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota

                                  (ii)

  

                  Subcommittee on Highways and Transit

                     SAM GRAVES, Missouri, Chairman

DON YOUNG, Alaska                    ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee       Columbia
FRANK A. LoBIONDO, New Jersey        STEVE COHEN, Tennessee
DUNCAN HUNTER, California            ALBIO SIRES, New Jersey
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICHARD M. NOLAN, Minnesota
LOU BARLETTA, Pennsylvania           DINA TITUS, Nevada
BLAKE FARENTHOLD, Texas              SEAN PATRICK MALONEY, New York
BOB GIBBS, Ohio                      ELIZABETH H. ESTY, Connecticut
JEFF DENHAM, California              JARED HUFFMAN, California
THOMAS MASSIE, Kentucky              JULIA BROWNLEY, California
MARK MEADOWS, North Carolina         ALAN S. LOWENTHAL, California
SCOTT PERRY, Pennsylvania            BRENDA L. LAWRENCE, Michigan
RODNEY DAVIS, Illinois               MARK DeSAULNIER, California
ROB WOODALL, Georgia                 EDDIE BERNICE JOHNSON, Texas
JOHN KATKO, New York                 MICHAEL E. CAPUANO, Massachusetts
BRIAN BABIN, Texas                   GRACE F. NAPOLITANO, California
GARRET GRAVES, Louisiana             DANIEL LIPINSKI, Illinois
BARBARA COMSTOCK, Virginia           HENRY C. ``HANK'' JOHNSON, Jr., 
DAVID ROUZER, North Carolina         Georgia
MIKE BOST, Illinois                  LOIS FRANKEL, Florida
DOUG LaMALFA, California             CHERI BUSTOS, Illinois
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
LLOYD SMUCKER, Pennsylvania, Vice    DONALD M. PAYNE, Jr., New Jersey
Chair                                PETER A. DeFAZIO, Oregon (Ex 
PAUL MITCHELL, Michigan              Officio)
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)





































                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES

John C. Schroer, Commissioner, Tennessee Department of 
  Transportation, on behalf of the American Association of State 
  Highway and Transportation Officials:

    Testimony....................................................     8
    Prepared statement...........................................    47
    Responses to questions for the record from Hon. Grace F. 
      Napolitano, a Representative in Congress from the State of 
      California.................................................    59
Michael Lewis, Executive Director, Colorado Department of 
  Transportation, on behalf of the Western Road Usage Charge 
  Consortium (RUC West):

    Testimony....................................................     8
    Prepared statement...........................................    60
    Responses to questions for the record from Hon. Rick Larsen, 
      a Representative in Congress from the State of Washington..    65
Chris Spear, President and Chief Executive Officer, American 
  Trucking Associations:

    Testimony....................................................     8
    Prepared statement...........................................    68
    Responses to questions for the record from Hon. Rick Larsen, 
      a Representative in Congress from the State of Washington..    84
Edward L. Mortimer, Executive Director, Transportation 
  Infrastructure, U.S. Chamber of Commerce:

    Testimony....................................................     8
    Prepared statement...........................................    85
    Responses to questions for the record from Hon. Rick Larsen, 
      a Representative in Congress from the State of Washington..    98
Thea M. Lee, President, Economic Policy Institute:

    Testimony....................................................     8
    Prepared statement...........................................    99

                       SUBMISSIONS FOR THE RECORD

Report, ``Matrix of Illustrative Surface Transportation Revenue 
  Options,'' published by the American Association of State 
  Highway and Transportation Officials...........................   109

                        ADDITIONS TO THE RECORD

Joint written statement of Nathan Nascimento, Vice President, 
  Freedom Partners and Brent Gardner, Chief Government Affairs 
  Officer, Americans for Prosperity..............................   117
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: LONG-TERM FUNDING 
                   FOR HIGHWAYS AND TRANSIT PROGRAMS

                              ----------                              


                        WEDNESDAY, MARCH 7, 2018

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
room 2167 Rayburn House Office Building, Hon. Sam Graves 
(Chairman of the subcommittee) presiding.
    Mr. Graves of Missouri. The subcommittee will come to 
order. Without objection, the Chair is authorized to declare a 
recess at any point. I want to welcome everybody. I especially 
want to welcome our witnesses today. I know some of you have 
come from a ways, and we do appreciate it.
    The question before us today is how we ensure that we have 
resources to build and maintain a surface transportation system 
that will meet the needs of the Nation and remain competitive 
in the 21st century.
    The movement of freight is expected to increase by 40 
percent over the next 30 years, while vehicle miles traveled 
are projected to increase by nearly 20 percent. At the same 
time, driverless vehicles and other advances in technology are 
going to change the way freight and passengers move through our 
transportation network, and our system needs to keep pace with 
these changes.
    Unfortunately, our current method of funding our Federal 
transportation programs is no longer sustainable. Beginning as 
early as the spring of 2020, States may have to halt 
construction of surface transportation projects because, once 
again, the Highway Trust Fund will not be able to meet its 
obligations.
    There are many reasons for this, and, obviously, the 
current motor fuel taxes and other user fees bring in less 
money, fuel economy standards have increased, and not all users 
pay into the trust fund. But the fact remains the Highway Trust 
Fund is going broke and we have to act to fix that.
    Continuing to rely on bailouts from the General Fund is not 
the answer. There simply isn't enough money left in the couch 
cushions. We need to work together to reform the Highway Trust 
Fund to ensure that users that benefit from the system pay into 
the system. We need a long-term sustainable solution that gives 
our State and local partners the certainty they need to plan 
and build their projects. We need a solution so we can build a 
modern and efficient transportation system, a system that will 
move people and goods efficiently, grow American jobs, and 
ensure that we remain competitive in the global marketplace.
    Our witnesses today are going to offer potential solutions 
and discuss some of the innovative new approaches to funding 
our surface transportation programs. And, again, I thank you 
all for being here.
    I will now recognize Ranking Member Norton of the 
subcommittee for her statement.
    Ms. Norton. I want to thank you, Chairman Graves, for this 
hearing. And I think anyone who has traveled the streets of the 
Nation's Capital, or the highways leading into the Nation's 
Capital will also say thank you for today's hearing on how to 
fund the highway and transit infrastructure of our country so 
that it is sustainable, so that we don't have to come back in 
literally a few months because the Highway Trust Fund has run 
out of funds, as if that were any surprise.
    I do believe that anyone who heard Secretary Chao's 
testimony yesterday will agree that they did not hear any real 
plan for investments in infrastructure, but I am encouraged by 
what appears to be the President's openness to higher gas 
taxes. One thing seems clear, it takes money to fix the 
highways, and for a quarter of a century we have been under the 
illusion that that is not really the case.
    So I hope that the President's apparent openness to higher 
gas taxes can inspire the committees of jurisdiction, the 
Highway Ways and Means Committee and the Senate Finance 
Committee, to finally, at last, act.
    Last year, Chairman Graves and I got 250 Members of 
Congress, with very robust representation on both sides of the 
aisle, to sign onto a letter to the leadership of the Ways and 
Means Committee urging a prominent solution to this Highway 
Trust Fund crisis.
    In this letter, we specifically urged a long-term dedicated 
user-based revenue stream that can support transportation and 
infrastructure investments. I mean, I hope those words don't 
sound like cliches. It is the only way to say them, and we have 
been saying them now for decades without any results.
    We do all agree on two things: The importance of 
infrastructure investment to our national economy, and the need 
for real investment to improve our infrastructure. Our 
disagreements start with, and perhaps end with, how to pay for 
it.
    It seems to me that today's subcommittee hearing shows that 
we are well past the point of glossing over the problem and, 
again, saying the taboo words ``all options are on the table.'' 
What are they? Congress needs to make tough decisions, as 
always, and find a permanent long-term revenue stream for our 
highways and bridges.
    Many of the so-called options, such as finding cheaper ways 
to borrow, will not produce real revenue to make a difference 
in our infrastructure backlog. Other options, such as public-
private partnerships--and I commend the committee for the 
special Panel on Public-Private Partnerships on which I was 
among those who served, because this panel did a very thorough 
investigation of P3s.
    But I believe that all those who served on that special 
panel will agree that P3s are, perhaps, best seen as a rather 
expensive scheme to borrow private money, certainly borrow more 
money than we borrow by the Federal Government, to do the same 
thing. Far too many projects simply have no revenue stream 
attached to them to pay for a P3. And, of course, you have to 
pay for the profit margin as well. Transit P3s rely on 
dedicating decades of future tax revenue to pay the investors 
and slashing labor benefits to protect profits.
    Yet another option, tolling. Let's deal with that one and 
see where the American people stand on tolling. A Rasmussen 
survey found that just 22 percent of Americans favor putting 
tolls on interstate highways for infrastructure maintenance. 
Three times that many, or 65 percent, are opposed to turning 
the Nation's interstate highways into toll roads.
    Pushing tolling on urban areas is just not the answer. That 
leaves real user fees. In other words, we are back to where we 
started, back to where the Eisenhower administration started 
us. And if we think we are smarter, we certainly haven't proved 
it since then.
    The politics of raising the gas tax has paralyzed the 
Congress for a quarter of a century. And yet, 24 States who are 
represented by Members of Congress have simply not had the same 
hesitation, including some deeply conservative States that have 
raised their gas taxes over the past 4 years.
    Today, I am very pleased we will hear that the U.S. Chamber 
of Commerce, State departments of transportation, and the 
trucking industry support higher gas taxes. These are the folks 
who are going to have to pay them, and they are for them. We 
have heard multiple reports, of course, that the President 
supports the gas tax. So I think and hope that with this 
hearing, the reality is beginning to settle in that there is 
what appears to be an American majority for raising the gas 
tax.
    The FAST Act also funded an alternative funding 
demonstration program for States to experiment. I thought that 
was a great leap forward. It was only $20 million, as I recall. 
Today, we will hear from the Colorado Department of 
Transportation, on behalf of the Western Road Usage Charge 
Consortium. They will describe the possible future of a 
mileage-based user fee and the benefits this system can have on 
providing a sustainable long-term funding stream. It is really 
the only new idea.
    In the new world of Uber, Lyft, and autonomous vehicles, 
there are many unknowns, and I am pleased that our subcommittee 
has had hearings on some of those unknowns. And we don't know 
how these technologies may affect our infrastructure assets 
over time. However, in the immediate term, we face a massive 
infrastructure backlog that continues to mount while Congress 
does nothing, and that needs to be rectified first. These new 
technologies do not eliminate that need.
    I am grateful, again, to Chairman Graves for holding this 
hearing and look forward to our continued work together to hold 
the Ways and Means Committee's feet to the fire to deliver the 
funding for our Nation's highway and transit systems. We can't 
afford to wait any longer.
    I thank you, and I yield back, Mr. Chairman.
    Mr. Graves of Missouri. I now turn to the chairman of the 
full committee, Bill Shuster.
    Mr. Shuster. Thank you, Chairman Graves. Thanks for holding 
this hearing today.
    Thanks for the panel coming today. I think that the panel 
may have different ideas on how to get where we need to go, but 
I think we are all on the same page that we need to go there. 
So, again, I am looking forward to hearing from all of you.
    I will say--look, I have been very excited that we have had 
a President of the United States in his inaugural address utter 
the word ``infrastructure.'' I don't think we have had anybody 
say that since maybe Lincoln. He uttered ``internal 
improvements,'' and the internal improvements of the 1800s are 
today the improvements to the infrastructure.
    I was pleased he put out a plan. Some of it was, I thought, 
good. Some of it was not so good. Some of it we need to work on 
and maybe improve upon it.
    I know the ranking member talked about P3s. I do not think 
they are a silver bullet. I do think that we can enhance them. 
It is a tool in the toolbox. And when we are talking about 
infrastructure and improving highways and bridges, I don't 
think that is necessarily what we are talking about, tolling 
roads, at least not in my district, in my State, are you going 
to toll a road. We took an attempt at that in 1981 in the 
northern tier and that fell flat.
    There are things we need to do in the permitting process. 
The President, I think, is right, reducing that time. I think 
we have all seen these road projects take an average of about 
14 years. That is entirely too long. And I know that MAP-21 and 
in the FAST Act, we have done some things to push forward 
reforms on streamlining, but I think we can still do more. And 
I think that it is important that the focus which we did in the 
FAST Act needs to--the intended purpose of the Highway Trust 
Fund was to build the Interstate Highway System. Then over the 
years, we kept diluting it and diluting it. We need to get back 
to that and improving that.
    I know in my State, I talk about I-81 all the time. And I 
know that we have the commissioner from Tennessee. It happens 
to run through Tennessee also. But if you go through the six 
States, New York, Pennsylvania, Maryland, West Virginia, 
Virginia, Tennessee, they may not all have the same wherewithal 
to do things.
    Some States, and I will be interested to hear from the 
commissioner today about, you know, he has got I think nine 
interstates running through his district. I-81 is important to 
me; I am not so sure how important it is to Tennessee, and if 
he is willing to spend State dollars on that highway--but that 
is what the Federal Government's job is, to say, Look, we are 
going to put two more lanes on I-81, or we are going to do this 
highway. It is critical to Pennsylvania. Maryland has 18 miles. 
Tennessee may say, well, I-81 is not that important to us, so 
you better give us a push and you better give us some money to 
help us do this. So, again, I am interested in hearing that and 
hearing from all of you.
    My intent is hopefully working with the Democrats on the 
committee to put together a big, broad bipartisan 
infrastructure bill. And as the ranking member pointed out, we 
can put all we want in there about revenues, but it has to go 
to the Ways and Means Committee. I think that it takes 
Presidential leadership to do the things we need to do, and, 
quite frankly, how do you fund it? I know Ranking Member 
DeFazio has ``A Penny for Progress.'' It is a good idea. There 
are lots of ideas out there.
    But the easiest one for us to all understand, not that it 
is easy to pass or increase, is what we pay at the pump, and we 
haven't done it for 25 years; we haven't increased that. 
Thirty-one States have done it. There has been no political 
price to pay for it. In fact, it is pretty popular in the 
States they have done it in. Indiana, a Republican State, did 
it; South Carolina, a Republican State, did it. Pennsylvania, 
when they were controlled by Republicans in both Chambers and 
the Governor, did. And many--Utah has done it, which is maybe 
the reddest of the reddest States. And so it has been done, and 
nobody has paid the political price for it.
    I believe we will pay a political price if the trust fund 
runs out in October of 2020, when it is projected. For those 
that forget what the political calendar looks like, that is 
October before the Presidential election. So we are going to 
pay the price if we don't address this; and we already are 
paying it in congestion and, you know, bad roads, failing 
bridges across this country.
    So I for one think it is time to do it. The President has 
said he would support that. And, again, move forward. The time 
is now. It takes Presidential leadership to do this, but we 
need to invest in our infrastructure.
    Now, a lot of folks on my side, and I get it, and a lot of 
folks on the other side may not be too warm and fuzzy on an 
increase to the user fee right before an election, but there is 
always a lame duck session.
    So I think it is important we put a document out there, we 
get a debate started in this country, and then the timing of 
it, we will figure that as we move forward.
    But I also want to point out to those on my side in 
Congress talk about the user fee--and that is what it is, a 
user fee--that it is regressive. And I come from rural 
Pennsylvania. It is a regressive fee. Those people in my 
district will pay more, because they use the roads more. In 
fact, that is their only alternative. They don't have any other 
way to get around. But that regressive tax also has a 
progressive benefit to those folks in my district. The most 
rural counties in America, for every dollar they put in, they 
get $1.70 back. You can't build roadways from Pittsburgh to 
Philadelphia unless the population centers subsidize my 
roadway.
    So when we talk about transit doesn't pay into the trust 
fund, they don't. We subsidize SEPTA [Southeastern Pennsylvania 
Transportation Authority]. We subsidize the Pittsburgh Transit 
Authority at 30 percent. If you go to my district, a rural 
district, they are subsidizing those roadways from 50 to 70 
percent.
    So we need to back off and look at this in a different way. 
It is what Republicans have done historically. The three great 
infrastructure Presidents are Lincoln with the Transcontinental 
Railroad; Teddy Roosevelt, the Panama Canal; and Eisenhower 
with the Interstate Highway System.
    So, again, it is something that there is a Federal 
responsibility. Even Adam Smith said it; and that is why we put 
that up there to remind us. When we all want to quote Adam 
Smith, he said it is erecting and maintaining infrastructure to 
promote commerce. And then, of course, the Constitution is 
pretty clear to me, also.
    So it is a role of ours. I have gone over 1 minute and 17 
seconds, which I never do, but I am so passionate about this 
that I felt--I am glad that Chairman Graves has indulged me.
    So, with that, I am looking forward to hearing from you and 
I thank you, Mr. Chairman.
    Mr. Graves of Missouri. I now turn to Ranking Member Peter 
DeFazio.
    Mr. DeFazio. Well, thanks, Mr. Chairman.
    In February 2017, we convened a hearing in this room to 
talk about investing in infrastructure. There was consensus we 
needed to invest. There were a number of ideas out there that 
were practical. Here we are 13 months later talking about the 
same thing. You know, it is time to stop talking and do 
something. I mean, this is getting absolutely absurd.
    You know, as the chairman said, 31 States have raised 
substantial revenue, 24 just with gas taxes, others with a mix 
like my State of fees and taxes. No one has lost their 
election. No one, for the gutless wonders I work with, no one 
has lost their election--in fact, in New Jersey, the only two 
people who lost were two Republican State senators who voted 
against the gas tax increase.
    Now, I am sure it was a coincidence, but it sure as hell 
didn't help them. But around here it is like, oh my God, we 
can't even. I mean, I came out with ``A Penny for Progress'' to 
make people think how pathetic they are. I say to them, you are 
going to lose your election if gas goes up 1\1/2\ cents a 
gallon? It probably went up 2 cents a gallon while you were 
driving to work today because something happened in the Middle 
East, or the oil companies needed more profits. One and a half 
cents a gallon, borrow $500 billion, pay it back, no unfunded 
debt. Well, we can't do that. Talk to the Speaker. Oh, that is 
a tax increase. Can't do that, we don't increase taxes.
    Well, if you don't increase taxes, we are not having an 
infrastructure bill and we are doing nothing, and we are just 
sitting here jawing. That is all we are doing, sitting here 
jawing and pretending. That is the reality.
    You know, P3s have come up. We had a 6-month-long select 
panel meet on that issue; and at the end, the bipartisan 
consensus was P3s are a nice tool. And the biggest advocates we 
had before us from Wall Street and providers, Macquarie Capital 
and others, admitted they can't address more than 10 to 12 
percent of our infrastructure needs, because the only places 
that pay back are in major urban areas and have high volumes of 
traffic--ironically, in blue areas. Those are really the only 
places that are viable for P3s.
    So that is not a solution, it is a tool. Some say, Oh, 
let's do VMT. Tomorrow? No. Next week? No. This year? No. Maybe 
10 years from now. Yeah. We are not ready to go to VMT. So 
anybody that says, ``oh, let's just do VMT''--that is what the 
Speaker has said, ``oh, I like VMT''--you can put it off into 
the distant future. Oh, we will do that someday. Meanwhile, the 
country falls apart. And we are losing productivity, we are 
wasting fuel, people are damaging their vehicles, and we just 
can't get there.
    Now, we hear a lot about, oh my God, the magic solution is 
just to deal with the horrible delays with environmental 
reviews. All we have to do is get rid of NEPA and, whew, we 
save more money than it could cost to rebuild the 
infrastructure. Really? No. In fact, the one report that people 
rely on by some guy who works at--a hack at a think tank named 
Common Good quoted reports that actually contradicted his 
conclusions. They said the biggest problem is funding, it is 
not the delays.
    Yeah, you are right, for 4 percent of the projects that 
involve Federal money, there's 96 over here, 4 over here--it 
takes a little more than 3 years, on average, because these are 
huge projects with major impacts that people have concerns 
about and it takes a little while to work that stuff through. 
Maybe we adopt the Chinese model and say, ``hey, don't worry 
about it, I am knocking on your door, the bulldozer is down the 
street. It is coming; your house is gone; your property is 
gone; we are building a new highway here.'' We could adopt that 
model.
    In fact, John Mica offered that in a bill a few years ago 
until I pointed out that allowing the President the authority 
to waive all laws would allow that to happen. Then Jerry Nadler 
chimed in and said, ``oh, this is great, because then we could 
use illegal immigrants, too, and it would be cheaper to do the 
projects.'' He was kidding, of course.
    So no, that is a myth. Yeah, can we improve it more? Have 
we improved it more? Yes. Are there improvements pending that 
DOT has adopted? Yes. Are there some other things we could do 
to tweak it around the edges for these major projects? Maybe, 
sure, and I am open to that. But to say this is a magic wand? 
Ninety-five percent of the projects get categorical exclusions. 
There is no delay. There is no evaluation. They are eligible. 
So let's cut the BS. I mean, seriously.
    Now, Secretary Chao came yesterday, apparently. I am sorry 
I couldn't be here. I had a medical appointment and tried to 
get here. I drove 120 miles to catch a plane, got canceled; 
drove 120 miles back, took another plane yesterday, couldn't 
get here. So, anyway, she said she came with no solutions or 
pay-fors. Well, then that means we are dead in the water if she 
represents the views of this administration. This is not going 
to come from Congress.
    You know, the President supports a gas tax. I will stand 
next to the President. I heard in a meeting where he may have 
said something about a substantial increase in the gas tax. I 
have never confirmed that he said that, but I also said in that 
meeting when one Republican Senator said, oh, those Democrats 
all just attack you, I said, well, if he did that, I would 
stand next to him. This would be bipartisan. It has been 
bipartisan in every State. Nobody has lost their election over 
this.
    What is the problem? The problem is the Speaker is 
ideologically opposed to Federal investment and increasing 
taxes in any form, no matter how much it benefits the Nation, 
ideologically opposed. And the rest of his team, that would be 
McCarthy and Brady, are following him. There hasn't even been a 
single hearing in Ways and Means on revenues for the Highway 
Trust Fund or infrastructure. And until we see that, until they 
hold a hearing and we see some progress, we would just be 
wasting our time over here to move forward or say we are going 
to move forward with some legislation that isn't going to be 
paid for or financed.
    Now, we need Presidential leadership, I agree with the 
chairman there. We need Presidential leadership. And if he 
would stand up and say he wants a gas tax, Bill would stand on 
his right, I would stand on his left, or I will stand on his 
left and Bill can stand on his right, I don't care, and we will 
be with him.
    So that is where we are at. That is the truth of it. You 
have all got some ideas. I haven't read all the testimony yet. 
I am sure they are all great ideas, but we have to have real 
money, plain and simple. Thank you.
    Mr. Graves of Missouri. I will now turn to Congressman 
Duncan to introduce our first witness.
    Mr. Duncan. Well, thank you, Mr. Chairman. And I want to 
welcome all the witnesses, but I especially want to welcome my 
good friend, Commissioner John Schroer, who is starting his 
eighth year as our commissioner of transportation in Tennessee.
    And he has done a great job. He came in and made some 
changes in some projects that have saved the Tennessee 
taxpayers $610 million in the time he has been in office. The 
Tennessee DOT has remained operating debt-free and on a pay-as-
you-go basis. And then he and our great Republican Governor, 
Bill Haslam, got through the first gas tax increase in 
Tennessee in 30 years; the IMPROVE Act, which will fund 962 
road and bridge projects across all 95 counties; and also, in 
addition to the State projects, will provide an additional $105 
million annually for cities and counties to support local 
infrastructure needs.
    I might add that my younger sister, I tell people all the 
time she is much more powerful than I am, because I am one of 
435, she is one of 33 State senators. And she supported the gas 
tax increase, although I do tease her and tell her that I think 
she is a little more liberal than I am, and she teases back and 
says that everybody's more liberal than I am. So we go back and 
forth a little bit.
    But, Commissioner Schroer has done an outstanding job, and 
in recognition of that, has become the national president of 
the American Association of State Highway and Transportation 
Officials. And it is an honor for me to welcome him here to the 
subcommittee, and I thank you, Mr. Chairman, for allowing me to 
do so.

     TESTIMONY OF JOHN C. SCHROER, COMMISSIONER, TENNESSEE 
    DEPARTMENT OF TRANSPORTATION, ON BEHALF OF THE AMERICAN 
  ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS; 
   MICHAEL LEWIS, EXECUTIVE DIRECTOR, COLORADO DEPARTMENT OF 
  TRANSPORTATION, ON BEHALF OF THE WESTERN ROAD USAGE CHARGE 
    CONSORTIUM (RUC WEST); CHRIS SPEAR, PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, AMERICAN TRUCKING ASSOCIATIONS; EDWARD L. 
 MORTIMER, EXECUTIVE DIRECTOR, TRANSPORTATION INFRASTRUCTURE, 
U.S. CHAMBER OF COMMERCE; AND THEA M. LEE, PRESIDENT, ECONOMIC 
                        POLICY INSTITUTE

    Mr. Graves of Missouri. Mr. Schroer.
    Mr. Schroer. Thank you very much. Thank you, Congressman 
Duncan, for that great introduction.
    Chairman Graves, Ranking Member Norton, and members of the 
subcommittee, thank you for the opportunity to testify here 
today. My name is John Schroer. I am the commissioner of 
transportation for the State of Tennessee, and I am also 
honored to serve as the 2017-2018 president of the American 
Association of State Highway and Transportation Officials, 
otherwise known as AASHTO.
    I would like to first express appreciation to you on behalf 
of the State DOTs for your leadership, along with your Senate 
and House colleagues, in passing the FAST Act in December 2015. 
The FAST Act continues to fulfill the constitutional directive 
that investment in transportation is a core Federal 
responsibility. While the FAST Act does not expire until 2020, 
President Trump recently laid out his infrastructure plan. The 
key component to the President's plan is for the Federal 
Government to invest $200 billion over the next 10 years that 
would create an additional $1.3 trillion in investment from 
States, local government, and the private sector.
    While leveraging Federal dollars is a great goal, there is 
only so much that can be done. Currently, 80 percent of the 
$217 billion invested in highway and bridge programs comes from 
State and local governments. States are already answering the 
call to action for increasing transportation investments. As 
has already been said, 31 States, including my home State of 
Tennessee, have successfully passed transportation funding 
bills.
    In 2017, I worked with Governor Bill Haslam to develop and 
pass the IMPROVE Act to provide increased funding for 
transportation for the first time in Tennessee in 30 years. 
This conservative, responsible, and user-based approach raises 
the gas tax by 6 cents, and diesel tax by 10 cents. This was no 
easy sale to the Tennessee Legislature. Finally, after 2 years 
of preparation, the only way we were able to get this bill 
passed was to wrap it around the largest single tax cut bill in 
the history of the State of Tennessee. The tax cuts were twice 
the increase of the fuel tax.
    AASHTO member States continue to believe that the best way 
to fund the Nation's crumbling infrastructure is through 
sustainable formula-based funding. The Highway Trust Fund has 
provided stable, reliable, and substantial highway transit 
funding for decades since its inception in 1956. However, 
today, the solvency of the trust fund is in jeopardy.
    Since 2008, the Highway Trust Fund has been sustained 
through a series of General Fund transfers, now amounting to 
$140 billion. Annual HTF spending is estimated to exceed 
receipts by $23 billion by fiscal year 2027. AASHTO estimates 
that the States may see a 40-percent drop from fiscal year 2020 
to the following year. For Tennessee, this would represent a 
$400 million reduction in our annual budget, wiping out the 
increase we received from passing the IMPROVE Act, plus an 
additional $150 million annually. This represents an overall 
20-percent reduction in our total budget, and a 45-percent 
reduction in our heavy building program. A cut of this 
magnitude will eliminate our ability to make significant 
inroads in addressing congestion through capacity expansion, 
and Tennessee would largely become a maintenance-only State.
    AASHTO strongly believes that the congressional 
infrastructure package must focus on direct funding distributed 
to States and transit agencies through formula programs, rather 
than through grants or Federal financing support. AASHTO's 
member DOTs already rely on various forms of financing and 
procurement, ranging from bonding, TIFIA credit assistance, 
State infrastructure banks, and public-private partnership, 
just among some of the tools.
    In Tennessee, a State that consistently has its roads 
ranked in the top five in the Nation, we are a pay-as-you-go 
State. We have no transportation debt and have no roads that 
are tolled. We rely solely on the trust fund's formula money 
and State revenues.
    While we do not object to the current options to capital 
markets for DOTs, we would strongly object to increasing those 
options at the expense of the Highway Trust Fund. There is 
ample documented evidence that shows infrastructure investment 
is critical for the long-term economic growth, increasing 
productivity, employment, household income, and exports.
    Conversely, without improving our Nation's infrastructure, 
deteriorating conditions can produce a severe drag on the 
overall economy. In light of new capacity and upkeep needs for 
every State in the country, the current trajectory of the 
Highway Trust Fund, the backbone of Federal Surface 
Transportation Program, is simply unsustainable, as it will 
have insufficient resources to meet current Federal investment 
levels beyond fiscal year 2020.
    I want to thank you again for the opportunity to testify, 
and I am happy to answer any questions that you may have.
    Mr. Graves of Missouri. Thank you, Mr. Schroer.
    Next we have Mr. Michael Lewis, who is the executive 
director of the Colorado Department of Transportation, and he 
is here on behalf of the Western Road Usage Charge Consortium.
    Mr. Lewis. Thank you, Chairman Graves and Ranking Member 
Norton, for the invitation to testify before the subcommittee 
today specifically on a possible alternative funding mechanism, 
what we call the road usage charge, or RUC. You may also hear 
these systems referred to as a mileage-based user fee or 
vehicle miles traveled fee.
    I am pleased to be here representing RUC West, a voluntary 
coalition of 14 western State departments of transportation 
committed to collaborative research and information sharing on 
the development of a new funding method for transportation 
infrastructure. The primary goal of this coalition is to build 
public sector organizational capacity and expertise in RUC 
systems, including associated policy, administration, and 
technology issues.
    The Colorado Department of Transportation is facing a 
nearly $1 billion annual funding shortfall over the next 10 
years, and is exploring transportation funding alternatives, as 
the gas tax is unable to meet the infrastructure investment 
needs of the transportation system. To put it in simple terms, 
we need to nearly double our current amount of funding to meet 
the transportation needs of Colorado.
    Sadly, our State's funding situation is not unique. It is a 
dilemma that is shared by all States across our country. This 
dilemma is driven by one simple fact: The gas tax, as we know 
it, is not sustainable. For many years, gas taxes have worked 
well as a user fee to fund transportation. The more someone 
drove and used the system, the more fuel they purchased, the 
more they paid toward maintaining and improving our system.
    New fuel economy standards and the growing adoption of 
alternative fuel vehicles have upset that balance. Alternative 
fuel vehicles, including full electric, hybrid, compressed 
natural gas, liquid natural gas and propane, pay little or no 
fuel taxes, regardless of how much they use our highways. Their 
adoption and use are not bad things. They have significant 
positive benefits. But it also means that we must find a new, 
fair, and equitable way to collect user fees to adequately 
maintain the transportation system we all rely on.
    So what are Colorado and other members of RUC West doing to 
prepare for a future of more electric and alternative fuel 
vehicles and increased fuel efficiency? We are working 
cooperatively to research and evaluate a mileage-based fee 
system as an alternative funding mechanism to replace the gas 
tax.
    As the number of people in Colorado increases, so do the 
number of vehicle miles traveled and the wear and tear on our 
roads. Under a road usage charge, vehicles pay for the miles 
traveled, which equitably charges for the usage of the system, 
regardless of fuel type or fuel efficiency. Using pooled 
resources, RUC West has advanced research in the field by 
examining the impacts of changing vehicle fuel economy on State 
transportation funding, the effects of RUC on rural residents, 
protection of user privacy, parameters for RUC per-mile rate 
setting, and evasion and enforcement policy options.
    A number of States have already deployed pilot programs. In 
California, funding is used to evaluate a pay at the pump 
option for RUC, which includes electric charging stations. 
Colorado is working with the agricultural community to pilot a 
RUC system for rural residents; Hawaii is researching RUC 
collection on manual and automated readings at inspection 
stations; Washington State is testing critical elements of the 
interoperable multijurisdictional RUC system; and Oregon, the 
leader, continues to refine and improve their operational RUC 
system.
    These individual State efforts demonstrate the complexity 
and sophistication of RUC West member States and their 
understanding of the RUC system. In short, our States are 
working as laboratories, and are producing meaningful, 
replicable results.
    RUC West is demonstrating that the type of cooperation and 
collaboration needed to define and implement a new model for 
transportation funding is possible. In less than 5 years, we 
have gone from one State with a pilot program to many States 
with pilot activities and supporting legislation.
    Are there questions and concerns about RUC? Of course, 
there are. However, CDOT's recent pilot efforts demonstrate 
that the questions have answers and the concerns can be 
relieved. Our pilot allowed drivers of different vehicle types 
to choose how they report their mileage and compare what they 
pay under a road usage charge versus the current gas tax. 
Participants reported high satisfaction with all aspects of the 
pilot program. Ninety-one percent of participants said they 
would participate in a future pilot.
    Mr. Chairman and members of the subcommittee, it is ideas 
like these led by States that can help answer the very nature 
of this hearing, how do we provide long-term funding for our 
transportation system? CDOT and RUC West will continue to 
explore the possible funding mechanisms to ensure Americans 
have the mobility they need for livable communities and 
economic health. However, we cannot stress enough that we have 
an immediate funding crisis in this country regarding 
infrastructure. The findings from these pilot programs will 
provide important information on how best to structure and 
implement a sustainable funding mechanism for the long term.
    Mr. Chairman and members of the subcommittee, the future is 
upon us. We value our partnership with the Federal Government 
to support this work. I appreciate the subcommittee's time and 
attention to this important topic, and I will be happy to 
answer any questions you may have. Thank you very much.
    Mr. Graves of Missouri. Thank you, Mr. Lewis.
    Next, we have Mr. Chris Spear, who is the president and CEO 
of the American Trucking Associations.
    Mr. Spear. Thank you, Chairman Graves, Ranking Member 
Norton, and members of the subcommittee. Thank you for giving 
ATA the opportunity to testify on long-term, sustainable 
funding solutions for surface transportation infrastructure.
    The fact that we are having this discussion today, more 
than 2 years away from the expiration of the FAST Act, is 
welcome. It is a testament to the leadership of this committee 
and by President Trump, who I believe made this a front burner 
issue. I commend that. Now the hard work begins, paying for it.
    While ATA recognizes how difficult it is for Members of 
Congress to commit to, or even openly discuss the types of 
spending needed to address our ailing roads and bridges as well 
as the revenue raisers necessary to get there, it is very clear 
that doing nothing will impose a much higher cost on the 
American people, and on the industry that I represent.
    Each year, motorists spend more than $1,500, due to the 
lack of infrastructure investment. That is $500 spent repairing 
their vehicles and nearly $1,000 more wasted sitting in 
traffic. The trucking industry loses more than $63.4 billion 
every year because of congestion. That is 362,000 truck drivers 
sitting idle for an entire year. And as much as we loved the 
tax cut we got last year, we are going to give it all back, 
because that $63 billion is like a 9-percent tax on our 
industry. These are the costs of doing nothing.
    Our solution, the Build America Fund, is the most 
immediate, efficient, and conservative way to tackle this 
problem. We are proposing a 20 cent fee on fuel at the 
wholesale terminal rack, 5 cents per year for 4 years. Unlike 
tolls or mileage fees, it is extremely inexpensive to collect. 
More than 99 cents on every dollar will be spent on 
transportation programs and projects, not paying for new 
bureaucracies or lining the pockets of foreign banks. It 
doesn't grow the budget deficit, it shores up the Highway Trust 
Fund, and it puts real money on the table, $340 billion in new 
additional revenue over the first 10 years.
    Here are the alternatives: Doing nothing costs drivers 15 
times more than they pay under our proposal. Borrowing money 
from China just passes the buck to future generations with 
interest. Some States, in desperation, are resorting to tolls. 
Just look at I-66, just a stone's throw away from Capitol Hill. 
You have toll rates now up to $47 just one way for a 10-mile 
trip. Rhode Island is using a loophole in the Federal law to 
discriminate against trucks by charging a truck-only toll for 
more than a dozen bridges. And there is the idea of selling off 
public infrastructure to the highest bidder, leaving the people 
who rely on those facilities holding the bag decades after the 
money gained is spent.
    We offer a simple immediate solution: That same motorist 
currently paying $46.75 to go one way one day on I-66 would pay 
just $2 more a week under the Build America Fund for all roads 
and bridges. That is hardly regressive, and it doesn't mortgage 
our future or rely on inefficient fake funding schemes like 
tolls. Rather, the Build America Fund is a no-brainer. And if 
the money raised goes back into roads and bridges, people, 
including ATA members, will gladly pay it.
    Our proposal also fulfills the Federal Government's 
obligation under article I of the Constitution to establish 
roads and strengthen interstate commerce, not kick the can by 
devolving authority to cash-strapped States. This is an 
investment not just in our highway system, but in our economy 
and in jobs. Perhaps most critically, we know that providing 
the resources for highway safety improvements can save 
thousands of lives and prevent countless injuries.
    The trucking industry understands, like nobody else, roads 
and bridges are our backyard. We see them every minute of every 
day. To the 7.4 million hardworking people who move 71 percent 
of the domestic freight in this country and to most Americans, 
this is not about ideology, which is just another excuse to do 
nothing.
    ATA believes this is about doing what is right for America. 
Trucking pays half the tab into the Highway Trust Fund, and we 
are willing to pay more, because we know that the price for 
this investment is small compared to all the benefits we will 
receive. And that is why Ronald Reagan twice signed an increase 
in the user fee into law. He led, and our Nation prospered. 
Roads and bridges are not Republican or Democrat, they aren't 
free, and they aren't cheap. It is time to start investing in 
our future.
    Thank you for the opportunity to testify today.
    Mr. Graves of Missouri. Next, we have Mr. Ed Mortimer, who 
is the executive director of the transportation infrastructure 
at the U.S. Chamber of Commerce.
    Mr. Mortimer. Good morning, Chairman Graves, Ranking Member 
Norton, members of the subcommittee. My name is Ed Mortimer, 
and I have the pleasure of serving as the executive director of 
transportation infrastructure at the United States Chamber of 
Commerce. I also serve as executive director for the Americans 
for Transportation Mobility Coalition, which has been 
established since 2000 with business, labor, and a variety of 
transportation stakeholders that have been advocating on behalf 
of the importance of a national infrastructure program. And I 
am honored to be joined by one of our management committee 
members, Chris Spear, here today.
    America's transportation network is a vast system that 
connects people and places, moves goods, and boosts our economy 
and ensures our quality of life and safety. It has served as 
the backbone of the Nation's economy. As this subcommittee 
knows, America's infrastructure is aging and in dire need of 
modernization.
    We believe now is the time, now in our Nation's history, is 
the time to have this discussion and to move forward with what 
is the next system that we need to have. President Donald Trump 
has repeatedly announced his desire to enact an infrastructure 
investment plan, and many in Congress have expressed a 
willingness to advance such legislation. We were pleased to see 
the administration release their legislative principles, which 
has allowed the House and Senate to begin this hearing process. 
The national chamber and the Americans for Transportation 
Mobility Coalition believe that this is a once-in-a-
generational opportunity for Federal leadership to modernize 
America's infrastructure, and that this effort is critical to 
our Nation's future economic success.
    As this process moves forward, the national chamber 
believes that any package should include the four following 
principles, and I will note we released these principles on 
January 18th on LetsRebuildAmerica.Com. The four principles 
are: Increasing the Federal fuel user fee by 25 cents for 
surface transportation projects; implementing a multifaceted 
approach for leveraging more public and private resources; 
streamlining the permitting process at the Federal, State, and 
local level; and expanding America's workforce through work-
based learning and immigration reform.
    We believe that business, labor, public transit advocates, 
and other key stakeholders must partner with Congress to find a 
long-term sustainable funding source for the Highway Trust 
Fund. Currently stuck at 18.4 cents a gallon, the Federal 
gasoline tax, as mentioned, has not been increased since 1993. 
Since then, its purchasing power has lost over 40 percent. It 
is the national chamber's position that the simplest, most 
straightforward solution to this immediate problem, that we as 
a Nation face, is to increase the user fee. It is not that the 
user fee isn't sustainable; it is that we haven't adjusted it. 
Could you imagine selling a 1993 product? That is what we are 
selling U.S. infrastructure at now, at 1993 cost.
    And yes, in the long run, we know that we need to look at 
other methods to pay for future modernization of 
infrastructure, but those are down the road. We are very 
excited about some of the programs and the options that are out 
there. But we have a problem today, ladies and gentlemen, a 
problem today that needs to be addressed. Putting this off will 
continue to cause our economy to suffer, will infect the 
quality of life of all Americans, and will not allow us to have 
the economic growth that tax reform, which the national chamber 
was a big proponent of getting, we are not going to have the 
full benefits of tax reform without getting infrastructure 
modernization done with paying for it.
    Again, we certainly see a very critical and important role 
for private investment. We applaud this subcommittee for its 
work in looking at public-private partnerships. We believe that 
it is a tool in the toolkit. There needs to be more private 
investment. We can get all the public investment in the world, 
we are not going to solve all of our infrastructure needs.
    So, again, enhancing and plussing up funding for current 
Federal credit programs, looking at potentially creating a new 
revolving loan program, all options that this subcommittee 
needs to consider, but private investment has to be part of the 
mix moving forward.
    We talked about permit streamlining. This subcommittee has 
done great work on the surface transportation side, but we need 
to codify the administration's one Federal decision for that 2-
year timeline to get projects through the list. And the U.S. 
Chamber of Commerce believes we need to additionally 
incentivize State and local governments, if they are going to 
get Federal money, that they also need to meet that 2-year 
requirement. Again, not changing environmental law, maintaining 
public input, but providing regulatory certainty. The number 
one reason we hear private investors aren't investing more in 
U.S. infrastructure, the lack of regulatory certainty in the 
process.
    The bottom line is that the time to make these important 
investments is now. Delaying action only makes these decisions 
more difficult and projects costlier. Our ATM Coalition has 
been talking to people around the country. We talked to Vicki 
Kitchin from the Build Indiana Council, who said, ``we need to 
make these investments; it is our turn now.''
    Our forefathers made the investments in infrastructure. 
Chairman Shuster talked about Teddy Roosevelt, Dwight 
Eisenhower. It is now our time to make those investments. We as 
a business community are willing to stand with you, Members of 
Congress, to get the job done. Delay is not an option.
    Thank you for the opportunity to speak.
    Mr. Graves of Missouri. Next, we have Ms. Thea Lee, who is 
the president of the Economic Policy Institute. Thanks for 
being here.
    Ms. Lee. Thank you, Chairman Graves, Ranking Member Norton, 
members of the subcommittee, for the invitation to come here 
today. My name is Thea Lee. I am president of the Economic 
Policy Institute, the Nation's premier think tank for analyzing 
the effects of economic policy on the lives of America's 
working families.
    For many years, EPI has consistently and repeatedly 
advocated for a substantial increase in investment in the 
Nation's infrastructure, in light of the extraordinary benefits 
this would bring to the U.S. economy, to workers, and to 
American businesses.
    The first step is to keep our current infrastructure from 
further deteriorating. Allowing the Highway Trust Fund to 
become progressively underfunded in the coming decade would do 
great damage. The Highway Trust Fund is currently funded, as 
others have talked about, by the Federal gas tax, which is not 
indexed to inflation and has not been increased since 1993. To 
ensure that the Highway Trust Fund has the resources to fund 
its planned expenditures, the current gas tax should be raised, 
or a new dedicated revenue source for the HTF should be found. 
Adequately funding the HTF will also free up funding for other 
infrastructure needs not funded by the HTF, like aviation and 
rail.
    But I want to be clear that simply maintaining the status 
quo by finding a funding source for the HTF is far from 
adequate. The current state of U.S. infrastructure is deeply 
deficient, due to past neglect and underinvestment. So we don't 
need to just maintain current infrastructure spending; we need 
to substantially increase it.
    Our research at EPI indicates that reversing this chronic 
underinvestment in infrastructure will require a strong Federal 
role and a commitment of Federal resources, even beyond new 
resources for the HTF. Currently, we rely heavily on State and 
local governments to finance a large share of infrastructure, 
particularly highways and transit. This heavy reliance on State 
and local governments has led us to the current situation, 
which virtually everybody agrees is suboptimal.
    I want to highlight some of the findings from our past 
research on infrastructure. The first is that there is no free 
lunch or free road or free bridge. American households will, in 
the end, pay for improved infrastructure, either through higher 
taxes or through user fees and tolls. Too often, advocates of 
leveraging the private sector via public-private partnerships 
or other schemes to incentivize private provision of 
infrastructure obscure or underplay this basic economic truth.
    Second, the Federal Government provides some key advantages 
to financing over private actors, and even over State and local 
governments. The clearest advantage is that the interest rate 
paid on Federal debt is lower than what is available to private 
actors or the States, making long-term debt financing cheaper 
for the Federal Government.
    Some have claimed that State and local provision of 
infrastructure is more efficient, simply because these levels 
of Government are closer to end users. But this argument is 
clearly wrong. Economic efficiency depends on the funding 
mechanism, not the level of Government. So a project financed 
by the Federal Government through a user fee, like the gas tax 
or mileage fee, is no less efficient than one financed by a 
State government through a user fee. Crucially, because State 
and local governments are not incentivized to take account of 
externalities or regional spillovers, they may underinvest in 
key infrastructure projects.
    We know that it isn't just, for example, Maryland residents 
who use Maryland roads and transit. Motorists and riders from 
other States do as well. So if Maryland policymakers are 
ignoring the potential benefits that accrue to out-of-State 
users, they are likely to underinvest in Maryland roads and 
transit. Virtually, all of our transportation systems are 
linked across State lines, and serve nonresidents as well as 
residents. So coordinating and prioritizing infrastructure 
projects at the Federal level can lead to significant 
efficiencies.
    And it is essential that all infrastructure projects, 
whether Federal or State, public or private, support good jobs 
with good wages, and explicitly incorporate key labor standards 
like Davis-Bacon. Infrastructure projects that pay good wages 
have durable benefits for communities and local tax bases, 
unlike those that seek to undermine decent wages and standards.
    Public-private partnerships and State infrastructure 
projects should meet the same high standards as federally 
financed projects. Buy America provisions, ensuring that 
infrastructure inputs and materials are made in America, 
consistent with our international obligations, are also 
essential for maximizing the benefits of infrastructure 
investment, in terms of good jobs and strong communities.
    Traditionally, there has been bipartisan support, there has 
been business and labor support for infrastructure investment, 
but in recent years, some of that has eroded.
    I hope that the broad support that we heard in today's 
hearing, and appreciate the other witnesses--I hope that that 
broad support will enable action in the near future. As many 
have said, and I totally agree with Mr. Mortimer, Mr. DeFazio, 
that the timing is urgent to act on this, that we can't afford 
to ignore it any further. It is important for our economic 
health, for our global competitiveness, and for good jobs.
    Thank you for your attention. I look forward to any 
questions you might have.
    Mr. Graves of Missouri. I will now turn to Chairman Shuster 
for opening questions.
    Mr. Shuster. Thank you. Again, thank you all for your 
testimony. I appreciate you being here to talk about such an 
important issue. I want to turn to Commissioner Schroer first, 
and maybe last, because I would like to hear--your State of 
Tennessee has--I think I counted nine interstate highways 
running through it.
    Now, I would like to think that since I-81 runs through 
Pennsylvania that it is as important to your State as it is 
mine, but I would like for you to talk about that, how 
important it is, and maybe some of the other roadways through 
your State. In Tennessee, where are you going to focus your 
dollars? It would seem to me if I was a DOT commissioner or 
secretary, I would focus them where I am going to get the best 
bang for the buck.
    But knowing that I-81--again, I go to I-81--it is important 
to Pennsylvania. I am not sure--I think it is pretty important 
to Maryland, but they have 18 miles of it, so they don't have a 
whole lot of money that they have to spend to widen it. So, 
again, you have got so many interstates coming through your 
State, can you tell me which are the highest priority? Where is 
I-81, for instance, on the priority list and what are low 
priorities, which may affect other States if they are not a 
priority going through your State?
    Mr. Schroer. I can assure you, I-81 is one of my top 
priority interstates.
    Mr. Shuster. Thank you.
    Mr. Schroer. As you said, we have nine interstates. We have 
over 1,000 miles of centerline interstate roads running through 
Tennessee. It is a pretty broad but not very tall State. But 
one of our most important roads, except for I-81, is I-40, and 
it goes all the way from, you know, the east coast to the west 
coast and carries a huge amount of traffic.
    The truck traffic that is on I-40 is significant and 
carries a whole lot of commerce throughout the State; I-65 
north-south, I-24, same way. And we have to spend those dollars 
that we have to maintain and to increase any capacity that we 
might need on those roads. But those roads are all important to 
the State of Tennessee.
    I do want to bring attention to another interstate that is 
just sort of beginning in Tennessee, and it is I-69, and I-69 
goes from Detroit to Texas. It is considered a road of national 
significance. We have received over $350 million in earmarks on 
I-69, and we have put those to good use.
    We are currently working on an area around Dyersburg in 
northwest Tennessee for a loop around that city. We have done a 
lot of work on that road in Memphis, but there is a 70-mile 
stretch south of Dyersburg to Memphis that runs through 
farmland that is much, much more important to the whole 
corridor of I-69 than it is to the State of Tennessee.
    It is the cost of about $1.5 billion for this 70- to 75-
mile road. It is a road project that now has to compete with 
every other road project that we have in the State of 
Tennessee. And we rank roads on prioritization from safety, 
congestion, and economic development; and, quite frankly, I-69 
doesn't reach any of those parameters. So it is a road that we 
will have a hard time funding and completing without some 
Federal investment.
    Mr. Shuster. What it sounds like is, quite frankly, you are 
not going to spend your precious dollars on a roadway that 
isn't that great a benefit to Tennessee, but if I am right, I-
69, I think, crosses through eight States. And Texas, for 
instance--I have been in Texas. I have been in Indiana. I know 
it is important to Indiana and Michigan.
    But there will be a missing link in I-69, not because you 
don't want to build it, but because you can't afford to build 
it. That is a perfect example of what the interstate highway 
program is all about. And I don't want to steal Mr. DeFazio's 
thunder or his visual, but the State of Oklahoma and Kansas, it 
sounds to me that could happen. I-69 could, over the years, be 
built and all of a sudden, there are 70 miles in Tennessee that 
you are not going to build it unless the Federal Government 
contributes to it and gives you a push or an incentive, and 
that is the money part. Is that accurate?
    Mr. Schroer. We will have a hard time putting $1.5 billion 
in that road as it competes with all the other roads across the 
State of Tennessee. And if we do, it will take a long, long 
time to do it. And without that link or any other links on I-
69, it is not an effective roadway for the country. And I think 
that is an important road for the United States, especially the 
north-south traffic.
    Mr. Shuster. Thank you very much, I appreciate that.
    I yield back.
    Mr. Graves of Missouri. The Chair notes the presence of our 
colleague and good friend, Mr. Larsen. We appreciate your 
interest in this topic and your participation today. And with 
that, I would ask unanimous consent that Mr. Larsen be allowed 
to fully participate in today's hearing. And, without 
objection, that is so ordered.
    I now turn to Ranking Member Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Lewis, you could do a real service to this committee by 
making us understand whether VMT is the answer to our problems. 
Now, I really don't want to go down a rathole, but I was one of 
those who thought that, well, this may be the answer. But I am 
looking at Colorado's comparison experiment, and we really need 
your most candid assessment here, because Colorado had the 
pilot program, and under your program, the drivers were able to 
compare what they would pay under a road usage charge versus 
current gas tax. I wonder if you see any problems in the 
eventual transaction without a raise in the gas tax?
    If we simply converted an inadequate gas tax to a per mile, 
this is my real question, to a per mile. So status quo, but it 
is a per-mile fee at the same rate, which is inadequate, would 
the VMT do us any good, or is it inevitable that the gas tax 
would have to come up, because as people saw these comparisons 
they would see the difference? In other words, what did the 
pilot tell us?
    Mr. Lewis. Right. Thank you, Ranking Member Norton. I think 
it is an excellent question. I think Mr. DeFazio raised it as 
well and many of my panel members. We are not there today.
    Ms. Norton. You are not what?
    Mr. Lewis. We are not there ready to implement a road usage 
charge today. That is why we have these pilot programs in place 
initiated by Oregon more than 15 years ago to test out is this 
a viable option.
    I had the honor of testifying before this committee maybe 5 
years ago, and we were talking about maybe by 2025 that would 
be ready. I would say that may still be true--and I would 
support my colleagues that we need a bridge. If we are ever 
going to get to a road usage charge, we need a bridge to get 
there. If it is 10 years away, Colorado is getting into a $5 
billion deficit in that 10 years before we are ready to 
implement a road usage charge.
    Ms. Norton. But would that mean a gradual raise in the gas 
tax over time so people wouldn't----
    Mr. Lewis. That is certainly one option. It is what is in 
place today. Administratively this would be the relatively easy 
way to go. I think it is a politically difficult way to go, as 
has been mentioned.
    But if we are going to--the concern about the 
sustainability, and some of my colleagues talked about this, 
the sustainability of the fuel tax, (A), it is not indexed. We 
know that. So in 25 years, we have lost 60 percent of its 
buying power. But the other thing that is really important to 
think about is we are--I believe there is no turning back on 
the evolution of motor vehicles to be operated by electric 
motors or alternative fuels. The auto manufacturers are 
already, you know, planning to go that route. So over time, we 
will be taking in--if we stick to the fuel tax, we will be 
taking in less and less revenue per vehicle miles.
    Ms. Norton. So the automatic vehicles will use, what, 
less----
    Mr. Lewis. An electric vehicle will pay no fees.
    Ms. Norton. Oh, the electric vehicle.
    Mr. Lewis. The electric vehicle will pay no fees. A 
compressed natural gas vehicle will pay no gas tax. So those 
are coming, and I think we need to prepare ourselves for that 
and we need to get ahead of it. And I think that for every day 
that we delay further study on a potential alternative is a day 
that we'll be late implementing it. That is why we feel that in 
the Western States it is so important to study more. These 
questions that you have raised are absolutely important 
questions. How do we operate----
    Ms. Norton. Are you testing the transition costs as well so 
that we would know whether or not a gradual raise in the gas 
tax or some other solution as you see the comparisons?
    Mr. Lewis. I think that is an administrative or legislative 
discussion, because we see it as a potential future replacement 
for the fuel tax. But in that period of time when we all know 
that, you know, we still need to make that bridge so we have 
sufficient revenues to fund the Highway Trust Fund, we are 
going to have to do something more than what we are doing 
today.
    One of the pilots that is underway right now between 
California and Oregon is to study about interoperability, how 
does one State reimburse another State for travel between 
States? That is something that has to be worked out. How do we 
do that across the whole country? The I-95 Corridor Coalition 
has a similar pilot underway to think about how would you do it 
in--I believe Pennsylvania and Delaware are working on that.
    There is a lot more study. We are not ready yet. I want to 
be very careful to say we are not ready to implement that yet, 
but it is an--I think what the pilots are showing----
    Ms. Norton. How much longer--I mean, is there a timeframe 
for the study?
    Mr. Lewis. I think it is difficult--I would say it is, you 
know, it is probably still 10 years off before it can be fully 
implemented.
    Ms. Norton. Thank you very much, Mr. Lewis.
    Thank you, Mr. Chairman.
    Mr. Graves of Missouri. Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman.
    Many of my colleagues are probably tired of hearing me say 
this, but I grew up working in a road construction business, so 
I know firsthand how uncertainty about Federal funding impacts 
everyone from State and local governments right to the private 
industry. That is why I believe so strongly in finding a long-
term, sustainable solution for the Highway Trust Fund's revenue 
shortfall.
    I think that President Trump's commitment to getting an 
infrastructure package passed this year provides the perfect 
avenue to do that, whether it is through a gas tax, which I 
have consistently advocated for, or another user fee. We heard 
Secretary Chao say it here yesterday that everything is on the 
table. This administration is open to considering all revenue 
sources. Charging a user fee to those that benefit from 
activity is a conservative principle. Currently, however, not 
all users of the trust fund are paying in.
    Mr. Schroer, can you speak to actions our States have taken 
or have looked into to ensure more users of the transportation 
system are supporting that system?
    Mr. Schroer. Well, thank you very much. As you know, we did 
pass a new revenue bill last year, and that was a great 
consideration to us. And so we, as part of the bill, while we 
did raise gas taxes 6 cents and diesel fuel 10 cents, we also 
added a fee for electric vehicles of $100 a year, and we added 
a fee to alternative sources of fuel as well. So compressed 
natural gas and other types of fueling, we added that to the 
bill. So we felt like we made a start in looking at other 
options as that happened. And so we hope it has an impact and 
we think it was how we should go about it.
    Mr. Barletta. Going back to the idea of a gas tax increase, 
I recognize one concern about this idea is that it is 
regressive. What we should not overlook, however, is the 
financial costs from wasting time and fuel sitting in traffic 
congestion and vehicle repairs incurred from potholes and other 
roadway damage are also disproportionately shouldered by those 
with lower income. I have always said it is better to spend 
money to solve a problem so that you never have to deal with it 
again, rather than keep putting a Band-Aid on this problem. You 
wouldn't keep replacing your carpet in your home if your roof 
was leaking. You would fix the roof.
    Now, while I continue to hear all options are on the table 
when it comes to a sustainable revenue source for the trust 
fund, my question for each member of the panel is what is more 
important, the outcome of permanently fixing the Highway Trust 
Fund or the user fee mechanism deployed to fix it? If we can go 
down the line.
    Mr. Schroer. Well, I think as the State of Tennessee and 
also as AASHTO, it is important for us to have a long-term 
sustainable funding source. We are completely convinced that is 
how it needs to be done. We feel it should be formula based 
that allows States to put priorities on projects as best they 
can. They know what is going on.
    And AASHTO has recommended many different options. We have 
revenue options that we have published for everyone's 
consideration, but we do continually believe that a sustainable 
form of revenue is important for us.

        [AASHTO's ``Matrix of Illustrative Surface Transportation 
        Revenue Options'' is on pages 109-116.]

    Mr. Lewis. And I fully concur with my colleague from 
Tennessee. And I would also add, and to you who know the 
construction industry, how difficult it is to plan. You can't 
plan your labor, you can't plan your equipment purchases if you 
don't know--if you look out on a 10-year horizon that there is 
a sustainable level of funding.
    So when money is dropped on us, which is great, we will 
never turn it away, it is very difficult to put programs out 
because our industry is perhaps not prepared for it. And so I 
think that sustainability and that predictability of the 
funding source is so critical to efficiency in this system.
    Mr. Spear. I would say it is all about the money. You all 
know how to do a highway bill. You have done the FAST Act, MAP-
21, SAFETEA-LU. I mean, you guys know how to write a highway 
bill. That is not the issue here. The issue is funding it, real 
money, putting real money on the table.
    I think it is imperative that this President put the full 
power of his office behind this. If he wants it done this year, 
he is going to have to lead up here. He is going to have to 
work collaboratively with you, not just throw everything on the 
table. Pick something, pick several things, but to get to the 
number that we are talking about, you are going to have to 
really get behind this all the way through the process and work 
collaboratively with you. We are here as a panel to really 
support you through that process, and I think that is really 
important.
    Beyond the money, I think 10 years is really a good swath 
of time to play with here, because it provides certainty. If 
you are going to build a real major project, whether it be a 
bypass, a bridge, a tunnel, you are not going to do it in a 
matter of 12 months; you are going to do it over the course of 
3 to 4 years. And to have that kind of certainty out there at 
the State and local level is really significant, and I think 
you will see a lot of economic gain from that type of 
certainty. So beyond the money, I think the 10 years is really 
an important element.
    Mr. Mortimer. I couldn't agree more. I would also concur 
that the national chamber put out its 25 cent gas tax, not 
because we always love doing that, because we looked at all the 
other options. But we are willing to work with the 
administration and Congress. It has got to be long-term 
sustainable, as Chris said, 10 years. If you are going to 
modernize infrastructure, it has to be a 10-year plan.
    So we have been patchworking this for the last 15 years. If 
we are going to truly deal with it, let's come up with that 
long-term sustainable funding source. And I think what I have 
heard today is that, while vehicle miles traveled has some 
outcomes in the future, we are not there. So if somebody can 
come to us with a long-term sustainable source that is going to 
invest and modernize infrastructure, the national chamber is 
going to be all for it.
    Mr. Barletta. That is like Dippin' Dots. It is the ice 
cream of the future. It is always the ice cream of the future.
    Ms. Lee. And, yes, you know, while we are always concerned 
with the progressivity or the regressivity of any funding 
mechanism, I think in this case, the user fee, the gas tax, or 
other user fee is warranted to make sure that Highway Trust 
Fund because the benefits are so widespread, as you said, and 
the impact of congestion and other things fall on everybody. 
But as I also said, you know, our belief is that we need 
additional funding beyond making the Highway Trust Fund whole, 
and that could be done in a more progressive way, particularly 
at the Federal level and should be.
    Mr. Barletta. Thank you. Thank you, Mr. Chairman.
    Mr. Graves of Missouri. Mr. DeFazio.
    Mr. DeFazio. Thanks, Mr. Chairman.
    I am going to get the chairman his own copy, but this is 
our latest version, and since he brought it up and Mr. Schroer 
really underlined the need for Federal investment, I mean, when 
you talked about that section of I-69 in your State that cost 
$1.2 billion, which is delivering benefits for the nationwide 
system, not just for your State. But, again, I have been 
showing this for years. Amos Switzer's farm field, brandnew 
Kansas turnpike. There is where it ended because Oklahoma got 
in financial difficulty until we had the Federal program. 
That's why we need a Federal program.
    If devolution didn't work in the 1950s, how the hell is it 
going to work in the 21st century when we are competing 
worldwide with other countries? Back then we were the dominant 
power in the world, we didn't need to worry about competing. So 
I will get Bill his own copy.
    Now, Mr. Lewis, on your VMT, and I--you know, you have a 
lot of satisfaction with the small number of volunteers, you 
had 150 or so, and you had highest satisfaction among those who 
were GPS based. And I am going to have my staff follow up with 
you because of all the concerns I hear about privacy. I mean, 
when we did our first pilot in Oregon in Blumenauer's district, 
I mean, the people in Blumenauer's district are not 
representative of the people in my district, in my rural areas 
in particular--they are happy that the Government should know 
where I am all the time, and in my district it is like the 
Government will know where I was after they have got the gun 
from my cold dead hand in my car. So it is--you know, there are 
some real issues there that need to be resolved.
    But my question would be, did you use congestion pricing? I 
mean, you are tracking the mileage by GPS because--here's my 
concern: You live in eastern Oregon, you have to drive 30 miles 
to the feed store. We shouldn't be charging that person the 
same per mile as someone who jumps onto I-205 in Portland, 
Oregon, which is backed up at rush hour, and now they are 
talking about, you know, having to toll because they are trying 
to drive people off of it. You know, so did you do variable 
pricing?
    Mr. Lewis. Thank you, Mr. DeFazio. We did not in our pilot.
    Mr. DeFazio. OK. Do you think that, for purposes of equity, 
that that is where we need to go?
    Mr. Lewis. I think the system theoretically certainly 
allows that to happen, which is either a pro or a con against 
using a road usage charge.
    Mr. DeFazio. Right. But, I mean, do you feel that it would 
be equitable to charge a rural Coloradan, you know, X cents per 
mile to drive on an empty road to the farm store, you know, 
farm supply store, and yet someone who jumps on, you know, the 
freeway right downtown in Denver, you know, at rush hour, they 
pay the same per mile? That doesn't seem right.
    Mr. Lewis. Well, I think the opportunity exists to evaluate 
that and to make different pricing, but I do think that one of 
the--and we are doing a second pilot this year specifically for 
the rural parts of Colorado to learn more about their impacts 
and their needs.
    And one of the things we found in the previous study was 
that, you know, many, as you know, coming from the rural part 
of the State, that many of the highway users in rural areas 
have, you know, older vehicles, larger capacity engines. If you 
drive an F-250, you are going to use a lot more gas than if you 
are driving a Prius in downtown Denver. And one of the 
opportunities for a road usage charge is that there is more 
equity because you are not paying based on the type of vehicle 
you need to use for your purposes; you are paying on how much 
you are using the roadway. So whether you are driving a Tesla 
in Boulder or an F-250 in Brush, you are paying for the use of 
the road, not what your vehicle uses in fuel. I think that is 
an opportunity.
    I think the issues you raise about equity on, you know, 
using on a congested highway versus a two-lane rural roadway, 
that is a very good comment, and I think that is something that 
would need to be studied further. Can you provide different 
levels of fees based on the type of road that is being used?
    Mr. DeFazio. Yeah, well, that is--and again, these are why 
we need--it is going to take us probably 10 years to get to 
something that would be acceptable nationwide and coordinated 
among the 50 States, since it isn't going to be a devolved 50-
State program, because that wouldn't work too well. So I 
appreciate that observation.
    I mean, the perversity of Oregon's current pilot is that if 
you have one of those giant dually pickup trucks, you will save 
money by paying under the VMT as opposed to the fuel tax. I am 
not sure we want to encourage that, but I also get the thing 
about the older, less efficient vehicles in the rural areas.
    And my time is just about up here. I just want to 
congratulate--you have all been great. But, Mr. Spear, thank 
you for your extraordinarily outspoken factual testimony on the 
issue and particularly bringing up the issue of I-66 and $46.75 
to go 10 miles. That is one heck of a toll. Four dollars and 
67.5 cents per mile. Not too many Americans can afford that. 
That is not the future that we desire.
    Thank you, Mr. Chairman.
    Mr. Graves of Missouri. Mr. Young.
    Mr. Young. Thank you, Mr. Chairman. I want to thank the 
panel.
    I am a little bit late, but everything I have heard here so 
far is good. If you had done what I wanted to do in 2005, we 
wouldn't be here today. At that time, it was 5 cents and 
indexing it. People don't understand we passed it in 1991--by 
the way, I have been through every highway bill since the 
beginning, and 1991 is 18\1/2\ cents per gallon; for our trust 
fund, as everybody knows, is about 7 cents now buying power. 
That is why we are behind the curve.
    I still believe in the user fee and the gas--I hate to say 
tax--just the user fee, but it is a gas tax. I think it is 
fair, so we are going to have carbon a long time.
    But I want to ask you, Mr. Spear, you supported the fuel 
tax, I think, most strongly for many years. What are we going 
to do about the electric trucks and all of the other things 
that are going to occur? How are we going to collect the money 
if they don't use fuel?
    Mr. Spear. Well, there are a number of ways you can do it 
right now. I don't think we would shy away from looking at 
alternative funding solutions, like using DMV registration 
fees, for instance. My testimony speaks to this. You don't have 
to create a huge bureaucracy to collect and capture alternative 
fuel vehicles, like electrics, hydrogen, CNG. Just have them 
register at the DMV annually. We all do that, no administrative 
overhead, and that is about $29 billion over 10 years.
    Mr. Young. But the only problem with a registration fee, 
and by the way, I set up a commission and they came back with 
about four different suggestions. I have a truck that is 
electric. I register it and you charge me. But my truck only 
goes 10 miles. His truck, the chairman's truck, goes 5,000 
miles on a highway. We are paying the same price. That is not 
fair. And so somewhere we have got to figure out equal or 
equity for those that travel long distances and those who 
travel short distances. But if I have my way, Mr. Chairman, 
there will be no cuts for any electric cars or anything else 
because they are using our roads.
    Mr. Spear. That is correct.
    Mr. Young. And we are going to be in carbon use for a long 
time, regardless of what they say. Some people say 10, 20 
years. I am saying 50 years before we finally get off of 
carbon-driven automobiles. We will increase electric cars. We 
have to collect some way, and I am looking for a suggestion. Is 
it a registration fee? I don't think that is fair. Is it a 
mileage fee? If we can collect on the mileage fee, that would 
be fair because, otherwise, I pay for what I use and you pay 
for what you use.
    Ms. Lee, I want to ask this question because the Trans-
Alaskan Pipeline, which I am very well aware of, was built by a 
project labor agreement. Yesterday, Secretary of Transportation 
Elaine Chao urged inclusion of Davis-Bacon in infrastructure 
development. Would you advocate these provisions be included in 
any infrastructure package that comes before the committee and 
the House as a whole?
    Ms. Lee. Yes, I would. Davis-Bacon provisions?
    Mr. Young. Why would you do that?
    Ms. Lee. Because maintaining community standards in terms 
of labor and wages allows, first of all, better quality 
projects because you have less turnover, you have better 
training, you have better quality of labor. And it provides 
durable benefits to the community and to workers, so that I 
think it is common sense that if you have an infrastructure 
project, you want that to support good wages in the community 
and not undercut wages.
    Mr. Young. I thank you, because I have been an advocate for 
this because I watched the pipeline be built in 3 years, no 
delays, on time. I won't say it was under budget, but it was 
darn near under budget. And I am a big believer in project 
labor agreements because we will get a product that will be 
finished probably under cost, and we won't have any problems of 
one of the sideline groups having to strike and slowing the 
whole process down. Our biggest problem, it takes a long time 
to build a highway now, and it shouldn't. You know, the 
permitting process, we tried that in TEA-LU. It improved it, 
didn't finish it. We have to continue to do that so we are not 
delayed.
    And agencies are our biggest villains, because they never 
do anything together. I have got a bridge here, and I think 
most people know where it is, where they are building a 
brandnew bridge next to another bridge that is falling down. 
Now the the U.S. Fish and Wildlife Service want to study the 
effect of the new bridge on the fish that swim back and forth. 
That is pure--never mind, I won't say it. I am not going to be 
a Don Young now, but it is a fact of life. So anyway----
    Mr. Shuster. It is not my initials, is it?
    Mr. Young. No, no, no, no, no, no, no, no, no. But anyway, 
I want to thank the panel. And, Mr. Chairman, I am a big 
supporter of paying. You cannot do this from smoke and mirrors. 
You have to have a steady flow of income so you can plan ahead 
of time. We made the mistake in 1991 because we didn't index 
it. That is our biggest challenge.
    So thank you, Mr. Chairman. I appreciate it.
    Mr. Graves of Missouri. Ms. Esty.
    Ms. Esty. Thank you, Mr. Chairman.
    And I want to thank the panel, and you are all spot on. We 
know what we need to do. This is not a dispute about policy. I 
want to thank all of you for saying there is an immediate need. 
It is about real funding. It is not about financing. We have 
plenty of debt already. We need to get back to the user fee 
pays and keeps up with those needs. And we have now got several 
decades of not doing that. And that is a hidden cost, but it is 
a cost and we are all paying it every day.
    John Katko, who I think had to leave, and I were part of a 
bipartisan group, and I will get you copies of this, 48 Members 
of this House, half Democrats, half Republicans, calling for 
real funding and real changes, and we need to do that right 
now.
    I mean, my home State of Connecticut, our Governor has 
announced she is putting on hold over $3 billion worth of 
projects until we fix this funding problem. There is no free 
lunch, there is no free road, there is no free bridge.
    So here's the question: Mr. Spear, you are totally right. 
We need the President to lean in. It is not enough to say it is 
all on the table. It has all been on the table for several 
decades. So the question for all of us here, but as for you as 
well, how are Members of Congress going to be held accountable 
for doing something, not talking about it, but doing?
    People were held accountable for the easy vote to lower 
people's taxes. How are Members of Congress going to be held 
accountable by the States, by the truckers, by the national 
chamber, by the people who know the real cost to industry, to 
individuals? How are we going to be held accountable--carrots 
and sticks--so Members of Congress actually at this time with 
this President do something right now? Because it is an 
immediate need, we need to do it now. And every day we don't do 
it is a cost to our citizens and, frankly, it is a cost to our 
democracy. If we cannot do the basics on this, no wonder 
everybody is so frustrated and so angry when we do know what to 
do.
    You know what, Syria and North Korea, we are not sure what 
to do. We know darn well what to do here, so help us figure 
out, like, how can you be part of it and what can we do? 
Thanks.
    Mr. Spear. Well, there is a lot to work with there. You 
know, look, this is a wonderful venue. I sense a lot of 
bipartisan spirit in the room about trying to address 
infrastructure. The policy debate, as I said earlier, you all 
know how to write highway bills. There is no magic needed 
there. I think paying for it has always been the impediment. We 
haven't raised this since 1993. If we had indexed it, the 
Congressman is right, we probably wouldn't be having this 
discussion right now.
    But beyond the hearing, beyond the policy debate and 
shaping legislation, you have got to vote. You have got to 
vote. You have got to put these amendments, these funding 
solutions on the floor and take votes. That is accountability. 
And we don't do that enough anymore. We used to. Ten, fifteen, 
twenty years ago you had regularity, bills passed. Whether you 
liked it or not, the best policy won, you voted, and things got 
signed into law.
    I think the President getting in the game is critical, and 
I commend him. We would not be having this discussion right now 
if he hadn't made it so. He saw something during the campaign, 
now into this year, that no one really else talked about. We 
are still riding on the tails of FAST. We got a couple years 
left. This is the time to have this discussion, but he has got 
to lead. He has got to get squarely behind a funding solution 
or solutions, take your pick, but don't cough up the menu and 
say, Congress, you fix it. If that were the case, you would 
have done that 25 years ago.
    Ms. Esty. Anyone else want to weigh in?
    Mr. Mortimer. Sure, Congresswoman, I will weigh in. Look, 
what we have been doing at the national chamber is, you know, 
Congressman Shuster talked about what Pennsylvania did. It was 
the Pennsylvania chamber that was standing there. If you go to 
all these State and local initiatives, it is State and local 
chambers. So what we are doing is we are having our State and 
local chambers, we had 37 of them write a letter to Congress 
saying, look, it is time for Federal action.
    So we are trying to mobilize our federation around the 
country and reminding lawmakers you can do it. They did it, 
they were successful. It is the business community working with 
organized labor, working with public transit advocates. This 
can be done. I don't know why there is this thought in this 
town that you can't do this.
    This committee has led many big bills to do it. It is just 
time to get the political courage to get it done. All we can 
offer as the business community, we are willing to stand with 
you to do it.
    Ms. Lee. And if I can just say, I think it is a powerful 
coalition when you bring labor and business together and put 
pressure on Members of Congress to do the right thing, to have 
the political courage, and to be rewarded for taking that 
stand. So it is time. Thanks.
    Ms. Esty. Thank you all very much.
    Mr. Graves of Missouri. Mr. Davis?
    Mr. Davis. Thank you, Mr. Chairman, and thank you to the 
panel.
    Like others have mentioned, and I know this was just a 
point of discussion from Mr. Spear, I think the President's 
call for an infrastructure package is an opportunity for us to 
look at fixing the Highway Trust Fund. I firmly believe, as 
everybody has said on both sides of the aisle, this has to be a 
priority for our Nation and has to be a priority for Congress.
    Obviously, we are here because it is clear the trust fund, 
the current funding sources, it is unsustainable. It is equally 
unsustainable to continue to rely on budget gimmicks and 
General Fund transfers to fulfill our surface transportation 
investment obligations.
    While I want to fix the Highway Trust Fund, I do not 
support a solution that only raises the current revenue 
sources. Solely raising the gas tax does not solve the long-
term problem. As you look at more and more electric vehicles on 
the road as well as increased fuel efficiency, we have to think 
differently. And I know I am not the only Member of Congress 
because you have heard it here today that feels this way.
    I think we need to look at the Highway Trust Fund as kind 
of like a 401(k). We have got to diversify. None of you invest 
your 401(k) in one stock. And frankly, when you look at the 
potential for electric vehicles to be more ubiquitous on our 
roadways in the upcoming years, if we don't do something now, 
then we are going to continue to see the need for budget 
gimmicks and General Fund transfers. That is why we want to 
stop. That is why we are here today.
    I just was out in California and rode in one of Tesla's 
prototype semi trucks. Imagine when electric technology and 
hybrid technology gets into the fleet level and what that is 
going to do to decimate the Highway Trust Fund even more.
    So you are here because we need to hear from you. Thinking 
in that 401(k) approach, a diversification, I want to ask you 
about, anybody on the panel wants to answer any of these 
concerns, do you agree that we need to be looking at other 
sources? And if so, what is your suggestion to bring in 
electric vehicles into the mix?
    Mr. Spear, Mr. Lewis, you guys can fight over who answers.
    Mr. Spear. I think Congressman DeFazio really hit on the 
point that this really isn't ready for prime time. We have got 
a lot of pilots, a lot of studies, and we need to be looking at 
alternative funding sources.
    Mr. Davis. Are you talking about the VMT that Mr. DeFazio--
--
    Mr. Spear. I am, and I think that is certainly one way that 
governments are looking at it. It is not ready for prime time. 
You are simply going from about 170 collectors of the fee at 
the wholesale rack, which is what we are proposing, to every 
vehicle on the road, millions. That is a huge bureaucracy to 
administer as it stands. You have got privacy issues. You have 
got cybersecurity issues.
    Mr. Davis. Rural versus urban issues.
    Mr. Spear. We are all for collecting. But I think, you 
know, the electric and alternative fuel vehicles currently on 
the roads today is very, very small. It is going to get big. 
The debate for alternative funding needs to start now, but it 
is probably going to come into play 10, 15 years from now. 
Let's start and have that debate now.
    But for this current 10 years, we need real money on the 
table, which is why, in contrast, we are proposing using the 
user fee. It is the most efficient, immediate, and conservative 
way to raise money. It shores up the trust fund, less than 1 
cent on the dollar to administer, and it is deficit neutral. 
There is not one proposal on the table right now that does all 
three of those things, except the user fee.
    Mr. Davis. Well, Mr. Spear, I think you misunderstand what 
my priority is. I think Congress is only going to act now to be 
able to prepare for the future. I don't know if you have seen 
this yet, Congress as a whole usually doesn't like to act on 
anything without a deadline. And now, let's put our own 
deadline in place, because when electric vehicles become more 
of a part of our roadways, it is going to be that much harder 
to be able to put them into the mix. We need to talk about 
diversification now, and that has to happen.
    Now the VMT, I disagree with many of my colleagues that 
that is the right approach. I am not a big fan of the VMT 
because I think it unfairly punishes rural America, where I 
represent, versus urban America. A single mom in my district 
that drives 30 miles to work is going to pay more than the 
single mom who drives to work 3 miles in the city of Chicago in 
Illinois. So I have got concerns with it.
    Now, I think we need to look at some other sources. There 
are other ideas out there--registration fees, battery taxes, 
freight issues--but I want everybody at the panel to begin to 
think about diversification now, because simply kicking the can 
down the road is only going to lead us back to this same table, 
the same debate, the same discussions that we are having today 
and, frankly, that is why I am not in favor of solely looking 
at the existing sources. So I appreciate it.
    Mr. Lewis, I know you wanted to say something, if the 
chairman would let you, but my time is up.
    Mr. Graves of Missouri. Go ahead, if you would like to 
answer.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Davis, I think that it is pretty easy to agree on what 
that trajectory is of vehicles that will get off of using gas 
and onto electric or other sources. We can look at what that 
trajectory is. We can see over time what percentage of the 
fleet and how quickly that is going to take over, and I think 
that gets to your point, is as that percentage of the fleet 
increases, we have to find a way to address those uses of our 
roadways. And so whether it is a one-time charge as Tennessee 
is doing or it is a per mile fee, I think we can start to blend 
those two, and I think we need to start to blend those two, but 
I am pretty sure it is going to happen. Is it 10 years, is it 
15 years that that saturation of electric and other fuel 
vehicles take on? It is going to become more of an issue. And I 
think we need to start now thinking about how we get those into 
the program.
    But as you said, and as many have said, it is not going to 
happen tomorrow. We need the bridge to fund the Highway Trust 
Fund in a sustainable way while we transition to these other 
modes of power.
    Mr. Graves of Missouri. Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman. And thank you all for 
being here this morning.
    I represent a very congested urban area with every mode of 
transportation within my district. However, transit funding 
issues are of particular importance to me at this time due to 
my State--and I am from New Jersey--my State's transit agency's 
troubled finances and some of the highest fares in the country.
    Despite this administration's neglect of the transit in the 
President's infrastructure package, I would like to hear some 
more of the panel's ideas on innovative Federal transit funding 
models you would recommend to this committee. Sir?
    Mr. Schroer. In the State of Tennessee, the State does not 
operate transit, and it is operated locally. And so as one of 
the opportunities we had in our bill, the IMPROVE Act, we 
allowed large cities and large counties to actually do a 
referendum to raise taxes to fund transit. And as a matter of 
fact, as we speak, the city of Nashville is working on a 
referendum on May the 1st to implement their first large 
transit program. So that is an opportunity.
    And obviously, transit has been part of the funding through 
the Highway Trust Fund for a long time, and I would think that 
would be a good source and it should probably continue.
    Mr. Payne. Thank you.
    Mr. Mortimer. Congressman, I would just add on that, so we 
are big supporters of full funding of public transit as part of 
the Federal program and as the infrastructure program, so 
obviously the gas tax increase that we talked about, we support 
the 80 percent, 20 percent for transit. That needs to continue, 
so the administration's proposal to eliminate the CIG program 
we think is a bad idea. We need to fully fund the New Starts 
programs.
    I think there are a lot of ways that public transit can 
look at innovative ways of finance. This subcommittee created a 
Penta-P program trying to incentivize communities to look at 
public-private partnerships as an opportunity. The Denver Eagle 
project was one that was able to utilize that program. There 
could be others that make it easier for transit to look at 
that.
    We also have got to figure out ways to capture the value 
around transit stations. Right now, the Federal Transit 
Administration doesn't fully capture that value and how we 
provide that value into helping defray the costs of those 
projects. Those are some of the ideas that we have.
    Mr. Payne. OK. Mr. Spear?
    Mr. Spear. I was going to say buses do benefit from the 
Highway Trust Fund, so shoring up the trust fund is a critical 
element to the solution that we would recommend. Our proposal 
certainly focuses on that, and that is a benefactor. I think 
making certain that the trust fund is whole is really critical, 
but also that the moneys that go into the trust fund are put 
back into the designated places. Diversion of funding is really 
an element that we need to avoid that we are actually raising 
money, putting money back in. And tolling schemes don't 
generally do that. Diversion of funding and diversion of 
traffic, quite frankly, causes a heck of a lot of problems. You 
are moving people off those roads onto side roads. You are 
creating more congestion, more problems for those side roads, 
more congestion and safety issues in communities. These are all 
very impactful.
    So making certain that the trust fund moneys go back into 
the modes that they are intended to is really critical.
    Mr. Payne. OK. Thank you.
    Mr. Lewis.
    Mr. Lewis. I would also add that, you know, we were talking 
about the transportation system. All these modes need to 
interconnect, and they all have value. Transit is very 
important in many of the rural areas of Colorado as well. It is 
not just the urban areas. So I think we need to recognize that 
we have a users of a transportation system, and there are 
different modes that make sense in different locations.
    Mr. Payne. OK.
    Ma'am? OK.
    Well, thank you for the answers that you have given.
    And, Mr. Chairman, I will yield back.
    Mr. Graves of Missouri. Mr. Faso.
    Mr. Faso. Thank you, Mr. Chairman.
    I want to thank the panel for your testimony today. It 
feels like we are all preaching to the same choir; the question 
is whether anyone is hearing it.
    Mr. Spear, your Build America Fund recommended a 20-cent 
per gallon fee phased in over a 5-year period--a 4-year period 
collected at the terminal rack. Could you further explain how 
you envision that proposal and what its advantages would be 
over a pure gas tax increase?
    Mr. Spear. Certainly. Yes, it does move it a couple steps 
up from where it is currently done at the pump. This came from 
an idea from Kenan Advantage, one of our members. They are the 
largest mover of fuel in North America. And the rack basically 
consists of three things. The wholesale rack is ports, 
terminals, or pipelines. That is where tank trucks go to get 
their fuel before they go to the filling station to where we 
fuel up. It is already taxed at the rack. There is only 170 
owners of the rack. It is the most narrow chokepoint in the 
supply chain, and they are already paying it. So putting it 
there basically bakes the fee into the price of fuel.
    Mr. Faso. So are these all fossil fuels?
    Mr. Spear. Yes.
    Mr. Faso. So we would be talking about natural gas as well?
    Mr. Spear. Yes.
    Mr. Faso. And propane?
    Mr. Spear. Yes.
    Mr. Faso. And obviously, if that were the case, that would 
get at one of the core issues that folks are raising here about 
electric vehicles, the electricity has to come from somewhere. 
I know a lot of people think electricity comes from the switch 
on the wall, but ultimately--yes, Mr. Lewis, it doesn't. But 
ultimately, those electric vehicles are powered by a central 
fuel source.
    Now, maybe battery technology and distributed generation in 
the future, that would be a different equation, but you are 
suggesting something that would, in essence, be a centralized 
collection point, 170 places? I am hard-pressed to think that 
is----
    Mr. Spear. 170 owners.
    Mr. Faso. Owners. And so how would this also affect 
electric generation, natural gas, et cetera?
    Mr. Spear. Well, it is something more broadly that we would 
need to look at. As I said earlier, you are not seeing a 
widespread use of alternative-fueled vehicles yet. You will in, 
certainly, 10, 15 years. We are looking at it through the lens 
of the next 10 years, and we believe this is the best proposal 
to raise immediate money, but we would look at alternative 
funding solutions for capturing alternative use vehicles as 
well, certainly.
    Mr. Faso. Do any of the other members of the panel have a 
thought about this particular proposal that has been raised by 
Mr. Spear and his association?
    Mr. Mortimer?
    Mr. Mortimer. Sure. I think it is something worth 
exploring. We haven't dived into it as much as ATA did. But 
again, I think our view is as long as it is transparent to the 
taxpayer, we know where the revenues are being collected, we 
know where they are going. I think the business community is 
willing to be supportive of those----
    Mr. Faso. So how would it actually be transparent to the 
taxpayer, since the cost of this will be built into the price 
of the fuel or the electric product, correct?
    Mr. Spear. I think the assurance that you all want to make 
for people paying into this is that the money is actually going 
to go back into roads and bridges. That is the guarantee they 
are looking for here. We are more than welcome and happy to pay 
for an increase in the user fee, so long as it goes back into 
roads and bridges.
    The nice thing about the rack is that it bakes it into the 
price of fuel. Most people that fuel up at the pump aren't even 
going to notice 5 cents. It goes up and down that much, as we 
said earlier, you know, just on our commute in. So, you know, 
that is the best place we believe to bake it into the price of 
fuel and get $340 billion of new revenue over the next 10 
years.
    Mr. Faso. Any other members of the panel want to weigh in 
on this point?
    Mr. Lewis. I just have an anecdotal comment. We did some 
focus group work in Colorado recently, and a surprisingly large 
number of the folks that we interviewed didn't even know there 
was a gas tax.
    Mr. Faso. Interesting.
    Mr. Schroer?
    Mr. Schroer. As a department, we are not really that 
concerned about actually where it is collected. I do think 
that, you know, the closest it gets to the wholesale place, the 
more apt you are to have a better efficiency in the collection, 
and that is important.
    I will have to say that we have to look at the other 
alternative sources as a point of revenue. We did that in 
Tennessee in our bill. We looked at other--we taxed electric 
vehicles and other forms of energy as part of that bill, and I 
think that is something that we have to look at as we go 
forward.
    Mr. Faso. Mr. Chairman, thank you. My time is up.
    Mr. Graves of Missouri. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. And I want to thank 
the subcommittee for letting me sit in as well today. I will 
return the favor if anyone wants to sit on the Aviation 
Subcommittee.
    Voice. It was close to an objection.
    Mr. Larsen. Mr. Spear, back to the wholesale versus retail. 
I had a question that was asked already, so I appreciate how 
that would be structured, but how do you--if you charge at the 
rack, how do you ensure that that unit of propane is going to 
be used for a vehicle as opposed to being used for nonvehicle 
use?
    Mr. Spear. Oh, I think that is where you would look to 
legislation for that and how the Highway Trust Fund is 
currently administered to ensure that there is no diversion 
between the relationship of Federal and State administration of 
the trust fund, that those funds actually go to their intended 
purpose and not diverted.
    Mr. Larsen. Well, I understand the intended purpose would 
be for transportation, and I fully support that, but I am 
saying, not all propane, I guess, that would be delivered would 
necessarily be used for a transportation purpose; it would be a 
legitimate purpose, but not transportation.
    Mr. Spear. That is true. More broadly, transportation 
logistics, perhaps. We look at the rack as the solution for 
diesel and petrol for roads and bridges, and that is the lion's 
share of the $340 billion over 10 years that we are talking 
about.
    Mr. Larsen. Yes, OK. With regards to electric, since we pay 
retail, pay at the pump for gas and gas tax, has anyone looked 
at the possibility of developing the same kind of notion for 
electric? That is, when I plug in my electric vehicle, every 
electron that goes in, there is a little tariff on it that ends 
up transferred to the Highway Trust Fund?
    Mr. Lewis. California, I believe, is currently undertaking 
a pilot that does exactly that.
    Mr. Larsen. Can you not use California as an example?
    Mr. Lewis. I do apologize for that, but it came to my mind. 
But they are doing that to study the collection of a fee at the 
charging stations for the miles used for that vehicle.
    Mr. Larsen. OK. So kind of like the gas tax at the pump. So 
it is collected then, then transferred to the trust fund.
    And then back to the bigger question about the gas tax and 
the elasticity of it. We keep going back to it and, speaking of 
kicking the can down the road, we ought to charge people for 
saying that and that would fund the Highway Trust Fund. I bring 
that up because the Transportation Revenue Commission from 2005 
or 2007, recommended moving towards a vehicle miles traveled, 
and that is either 10 or 12 years since that came out, and we 
are still piloting RUCs throughout the States. We are not 
moving quickly on this and not moving quickly enough to 
determine if it is a viable, legitimate supplement or 
complement to the Highway Trust Fund.
    I am a little more with Mr. Spear and Mr. Mortimer on are 
we ever going to get to it. You know, it is another 10 to 12 
years down the road maybe, but not at the rate we are going. Is 
there a way to get to a decision faster on the use of RUCs?
    Mr. Lewis. Yes. I think if there is more success and that 
you have got the 14 Western States----
    Mr. Larsen. Yes, Washington is one of them.
    Mr. Lewis. Then Washington is one of them, it is 
combining--we are learning from those experiences. We are 
learning from the good and the bad of how these are unfolding. 
You know, if we think that that is 10 years away, if we look 
back 25 years, the last time the fuel tax was increased, maybe 
10 years isn't so long, you know. So I think--and there is 
probably a role that USDOT can play in they are already playing 
in helping us fund some of these pilot programs. There are 
probably some interoperability studies that can be done. You 
know, there is an I-95 work and there is a Western States work. 
How do we tie the two together?
    So I think there is more that can be done if we look into 
the future and look at those curves and how quickly is the fuel 
efficiency going to go up and how quickly are the electric 
vehicles going to get into the system. On that curve, we can 
plan out a transition time, I think, but we need to take 
action.
    Mr. Larsen. Yes. OK.
    And, Ms. Lee, do we have a workforce that can--do we have 
the numbers in the workforce to do this?
    Ms. Lee. Yes, we absolutely do. You know, first of all, 
there are a lot of trained workers who are out of work or have 
dropped out of the labor force, but I think, you know, the 
labor market continues to be weak, even 9 years after the 
economic recovery. And so I think this is exactly the kind of 
boost that we need in terms of labor market participation and 
creating good jobs that would be spread all over the country. 
So it is a huge advantage, and also we can pair it and we 
should pair it with training, you know, with good training and 
apprenticeship programs that make sure that they are 
incorporating underserved populations and others that haven't 
been part of that.
    So I think this can be a tool for equity in the labor 
market, and it would be an excellent one that is both good 
macroeconomically and also good for local labor markets.
    Mr. Larsen. Thank you. And I just would note finally, Mr. 
Mortimer's testimony, your rewritten testimony, that getting 
rid of workers, moving them out of the U.S. workforce by not 
extending DACA [Deferred Action for Childhood Arrivals] or 
doing what we are doing with the TPS [Temporary Protected 
Status] folks, you are moving workers out of the U.S. labor 
force is not a good idea.
    So thank you, Mr. Chairman. I yield back.
    Mr. Graves of Missouri. Mr. Perry?
    Mr. Perry. Thank you, Mr. Chairman. Thank you, ladies and 
gentlemen for being here. We are all concerned about the 
vitality of the Highway Trust Fund and maintaining that. With 
that, I am concerned because the gas tax, of course, being 
bantered about as one of the most regressive taxes especially 
for low-income individuals who spend more of a proportion on 
their income on gasoline than other folks and, of course, it 
follows the supply chain as every retailer and everybody in 
business as the additional cost of the gasoline and 
transportation into their product and everybody pays that as 
well. And having just passed the American Tax Cuts and Jobs 
Act, I am a little remiss that we would immediately think about 
taking that away through an increased gas tax without something 
to offset it on the other side. And we all know we need a 
revenue source, but I am not sure that that wholly gets to the 
issue. And I think you would acknowledge that there are other 
vehicles that are on the highways that aren't paying through 
the gas tax, and even just increasing it fails to capture the 
revenue from those that are using it, even though it is, I 
would agree, a user fee.
    Mr. Mortimer, in particular, the U.S. Chamber of Commerce 
has endorsed a 25-cent increase of the Federal gas tax, which 
is the largest increase in the history of the tax. Do you know 
how much it will cost the average consumer, the household, 
annually, additionally?
    Mr. Mortimer. Sure, Congressman, thanks for the question. 
Yes. So it is 25 cents, it would be 5 years over a 5-year 
period.
    Mr. Perry. Right.
    Mr. Mortimer. And under our estimates, it is $9 a month. So 
we are talking about $104 a year. And Mr. Spear talked about 
the $1,500 that Americans of all economic levels are losing 
because of inadequate road conditions and sitting in 
congestion. So we just did the math and said, look, this is 
something that, while it may be regressive in one sense of 
collection, the benefits outweigh the regressive nature of 
collecting the fee. Infrastructure is an asset that we all 
benefit over many years, so the regression upfront is more than 
paid for when the reality is we get modern infrastructure and 
people's mobility improves.
    Mr. Perry. And certainly, coming from Pennsylvania, we have 
got a lot of old infrastructure, a lot of roads, and I am on 
this committee because I want to be, and I believe it is 
constitutional that the Federal Government is involved. But I 
struggle with this, and my figures are a little different. I 
come up with $285 a year per household additional on gas, which 
maybe it is not to some people certainly in this town, but it 
is a lot to a lot of people in the district that I represent 
and hope to continue to represent.
    Let me just ask you this. You know, I think that most 
people acknowledge that they benefit from a robust 
infrastructure regardless of how much they use it and they are 
willing to pay for it, but they want it be as efficient as it 
can be. And I would say, even with the increases, if we can 
show something on the other side of the ledger which would be 
much more palatable to people if you said to them, look, we are 
going to take more of your pay at the pump or at the--you know, 
if it is electric vehicles or what have you, but we are also 
going to reduce the cost or increase our efficiency.
    There are a couple laws in particular that I am interested 
in the national chamber's position on. Of course, the 
prevailing wage law hasn't been changed since 1935. The 
threshold is $2,000 since 1935, and my estimates, that the 
average wage is 22 percent higher than the actual market rate. 
So it is not really prevailing if that is the case, and people 
can dispute that, but I think it is hard to, at least at some 
point, not acknowledge that it is higher than the market rate 
and that labor costs are about 50 percent of construction 
costs. And with that, the requirement tends to inflate the 
costs by anywhere from 7 percent, I think legitimately, to 
about almost 10 percent.
    That one and project labor agreements where the agreement 
is we will complete the job on time and not strike and, you 
know, for the cost that we estimated, and to me that is a 
simple contractual agreement. I agree to pay you this, you 
agree to do this work. I don't expect you to not get it done on 
time and I don't expect you with--you know, without unforeseen 
eventualities to run over costs.
    Where does the United States Chamber of Commerce stand on 
those two issues, understanding that we do recognize the need 
to fund the Highway Trust Fund with some measure, but there is 
another side of the ledger that needs to be dealt with and 
modernized as well?
    Mr. Mortimer. Right. Good questions. Look, I mean, I 
think--so I spent 10 years with an engineering firm, so I am 
very familiar with how Davis-Bacon works. The bottom line is 
most engineering firms will tell you around the country if you 
are not paying the prevailing wage, you are probably not going 
to get the type of workforce to do the work that you need to 
get done. So whether the Congress decides to change the law or 
not, engineering firms are probably going to be paying that 
cost. That is my experience in my 10 years there.
    The U.S. Chamber of Commerce, we are in a coalition with 
organized labor, and we made an agreement that on 
infrastructure issues, we were not going to talk about any 
changes to the Davis-Bacon law or to project labor agreements, 
on infrastructure. Other parts of the economy we can have that 
discussion, but we thought it was more important to bring 
organized labor together to try to get a broad constituent of 
folks push this infrastructure issue, and so we had to make the 
decision that, for the immediate time being, in an 
infrastructure world, that we don't see the need and we don't 
see the interest in Congress right now to have an adjustment in 
Davis-Bacon. If that discussion happens, maybe the national 
chamber will relook at that, but that discussion is not going 
on in the debate, and we feel we have a great relationship with 
organized labor, and part of that is because we agreed not to 
talk about and not get involved in those issues.
    Mr. Perry. Appreciate your response.
    Thank you, Mr. Chairman. I yield back.
    Mr. Graves of Missouri. Mr. Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chairman and Ranking Member 
Norton, for holding this important conversation. I want to 
applaud members on both sides of the aisle who have 
demonstrated our bipartisan commitment on this committee to 
trying to fix the Highway Trust Fund and to discuss some of the 
issues around that and put our country on a sustainable path 
towards infrastructure investment.
    My first question is for Mr. Schroer. I want to thank you 
for your testimony. I was in another committee hearing earlier, 
but I read the written testimony and for AASHTO's continued 
work to highlight our needs for infrastructure investment 
across the country. I appreciate that AASHTO continues to 
include a freight bill user fee in its matrix of revenue 
options highlighted in exhibit 2 of your written testimony.
    As you may know, I have also introduced a bipartisan 
legislation that would implement this sustainable freight user 
fee to finance a freight trust fund. The DOT estimates that my 
plan would send over $100 million a year just in formula 
funding to freight priorities in Tennessee. What do you think 
you and your colleagues across the country could do with these 
kinds of resources to improve goods movement?
    Mr. Schroer. Well, in Tennessee, no question. As I 
mentioned earlier, we have nine interstates that travel 
throughout our State and heavy truck traffic, and we are 
concerned about being able to fund those and add capacity on 
those roads for the increased freight movement. And it does--we 
worry about safety of passenger vehicles and an increased 
movement of those and throughout our State. So money that can 
be used for freight movement is critical. We actually have 
hired several people in our department to only look at freight 
movement and projects that we can do that will enhance the 
movement of freight throughout our State. So it is a critical 
piece for Tennessee and across this country.
    Dr. Lowenthal. Talking about a dedicated freight revenue 
stream user fee, Mr. Lewis, what about in Colorado, could you 
use the money?
    Mr. Lewis. Oh, absolutely, Congressman. I think, you know, 
we established something called a Freight Advisory Committee 
about 18 months ago that brought in our partners in the 
trucking industry, shipping companies, the rail industry, to 
talk about what are those priorities. I mean, just think of the 
geography of Colorado. The Continental Divide that separates 
the Front Range from the western slope, the whole western two-
thirds of the State, all fuel, motor fuel, heating oil, 
aviation fuel to get to the western slope has to cross over the 
Continental Divide at a pass at 12,000 feet. Has to go, rain or 
snow, and that is the path that we access the whole western 
part of the State.
    We are just not able to grow the economy unless we are able 
to do something about that weak link in the transportation 
system, and that is true throughout the State. So dedicated 
freight revenues are critically important to the economic 
growth of the State.
    Dr. Lowenthal. Mr. Spear, I appreciate your comments in 
your written testimony about a freight weigh bill fee and the 
creation of a multimodal freight program. You know, I 
understand the concerns of the trucking industry about the 
collection of this fee, the potential for evasion or diversion, 
and the use of revenues collected by the trucking industry for 
other transportation modes. I understand those kinds of 
concerns. I personally believe we can overcome these issues by 
working with you and the ATA and other stakeholders that 
actually support this proposal to craft a final proposal that 
addresses these concerns that you have raised. Would you be 
willing to work with us on that?
    Mr. Spear. It is a much better alternative than litigation. 
So yes.
    Dr. Lowenthal. Also, it is sustainable, what we are talking 
about, and doesn't have the issues of the highway transit fund, 
which is not a sustainable funding trust fund.
    Mr. Spear. Well, it could be. It could be. That is up to 
you. We are here to help you. We are certainly united in 
helping you get that done. But I do feel that the provisions 
that you put into the FAST Act, on having freight plans, more 
oversight, not to the States, but of the DOT, reviewing those 
freight plans. As I said in my testimony, my opening statement, 
we lose, as an industry, $63.4 billion a year sitting in 
congestion. For passenger vehicles, that exceeds $100 billion. 
These are measurable numbers.
    Dr. Lowenthal. Right.
    Mr. Spear. And so having good freight flow, good freight 
plans are the starting point. You saw that in the FAST Act. Now 
we need to really keep the feet to the fire and make certain 
these plans are implemented and funded.
    Dr. Lowenthal. And I agree with you. I concur with you. And 
as I yield back, I think we should follow the money again here 
too. We have to have a sustainable funding stream.
    And so, with that, I yield back.
    Mr. Graves of Missouri. Mr. Smucker.
    Mr. Smucker. Thank you, Mr. Chairman. I would like to thank 
the chairman for scheduling this hearing on this very, very 
important topic, and it should be an important priority for us.
    I was part of the legislature in Pennsylvania when we 
recently passed the wholesale gas tax. Mr. Spear, just a quick 
question first. You talk about the fee at the terminal rack. Is 
that similar to the wholesale gas tax?
    Mr. Spear. Very much, yes.
    Mr. Smucker. And then, Mr. Spear, I would like to--you used 
the term ``gotta vote,'' and I sense the frustration in your 
voice. It has been a long time since we have addressed this. I 
would like to just explore that a little and talk about what 
happened in Pennsylvania. But if we had to vote today, what do 
you think the vote count would be?
    Mr. Spear. I would say, right now, we would probably have 
some work to do. But that is where, you know, having hearings 
like this, having this kind of dialogue, having the 
bipartisanship, having this panel, which is very diverse, by 
the way. There are not a lot of issues that we all agree on. 
This is one of them.
    Mr. Smucker. Right.
    Mr. Spear. And so in terms of policy and bills, you guys 
know how to write a highway bill. It is getting the votes for 
the funding, and we are prepared to really work that hard.
    Mr. Smucker. Well, I appreciate that. And I agree with your 
sentiment. This is something that needs to be done, but we also 
need to have the support to get it done.
    Mr. Spear. Correct.
    Mr. Smucker. And so I guess what I am asking you is this: 
One of the really important components--there are, I guess, two 
things that I could mention that were really, really important 
in Pennsylvania. And it was passed in Pennsylvania, not unlike 
a lot of other States now, that we have all talked about a lot 
of States that have done the same thing. And by the way, in 
Pennsylvania, it was Republican control, Republican Governor, 
Republican both Houses. And it was a time when we were trying 
to drive more fiscal responsibility, cutting areas of 
Government. We had folks who said they absolutely wouldn't vote 
to raise taxes, but were able to--you know, people came to 
understand that this really is a user fee on a very important 
core function of Government. You can maybe cut in other areas, 
but this is a core function of Government that affects our 
economy, affects the consumers. And you have already talked 
about some of that.
    But what was very critical was the leadership at the top, 
and we happen to have a secretary who was absolutely 
outstanding in driving the discussion. And I think we have that 
in the President today, a President who really is focused on 
infrastructure. And then it was building the public support. 
And this is where I would like to--you know, at the end of the 
day, we are legislators, we are here to represent the views of 
our constituents. And we have a lot of constituents--I am from 
a conservative district. I have a lot of folks who don't want 
to raise taxes. They don't want more dollars going to the 
Government. They want dollars in their own pocket. And so that 
is a very important sentiment that we have to recognize.
    So my question to you is, who is reminding the people of 
the cost of having infrastructure that is not working? Cost in 
congestion, cost in--you know, if your car hits a pothole, that 
is going to cost you $100 just to fix that, and the cost in--
you see it in the trucking industry, the cost added to every 
single product because of additional freight costs. If your 
trucks are sitting, I don't know how many--the number you said, 
but are sitting in congestion, 360,000 drivers or something 
like that. I mean, that adds to the cost.
    But what we saw in Pennsylvania was, you know, proponents, 
all the stakeholders really had sort of a strong engagement in 
reminding the public of the need and of the cost if we didn't 
do anything. I am not seeing that yet here. So I would like to 
ask you what you are doing now, and maybe for Mr. Mortimer as 
well. What are you doing now? What do you intend to do to help 
build the public support for this and to gain the support here 
within the legislature?
    Mr. Spear. Well, I think for starters, I said at the 
outset, the President's ability to amplify this issue is 
absolutely essential. He has done that, and I think we are 
seeing the benefit. Having this debate, we are having it 
because he made it a priority, a front burner issue.
    He does need to go further. We need to really down-select 
what the funding solutions are going to look like, but we also 
need to shape the narrative. We have a coalition. It exists. We 
have been very aggressive, not only working Capitol Hill and 
with States and other stakeholders, to really capture the 
narrative.
    And how we explain this really does need to center on the 
cost of doing nothing. People out there are paying $1,500 a 
year, $1,000 spent wasted in fuel sitting in traffic, the other 
$500 spent on repairing their vehicles. That number comes down 
exponentially. And we are only talking about them paying in 
about $110 more a year in fuel prices, OK. So they get better 
roads and bridges everywhere in the United States. That $1,500, 
there is your offset. Our industry, $63 billion sitting in 
traffic. That number comes down.
    So these are very measurable, they are real, real dollars, 
and I think we have a solution that really can tell that 
narrative to people and it will resonate. If they know the 
money is going back into roads and bridges, they are willing to 
pay for it. We have seen polling that has evidenced that.
    So we obviously have work to do. We need to shape this 
landscape up here, need to help you get the votes. We are ready 
to do that. We think the votes are there.
    Mr. Smucker. I know I am out of time, Mr. Chairman. Just 
one quick followup to that. I agree, and I think we have 
homework to do. This is something we need to continue to push. 
But I think the role that you all can play in this is 
absolutely critical. You have described it very well. And from 
my perspective and from what we saw in Pennsylvania, I think we 
can't do it without that kind of engagement from all of you and 
other stakeholders in the process.
    Mr. Graves of Missouri. Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman. And thank you to 
the panel for all your testimony.
    And we all agree, and you apparently agree with us. We need 
more money for transportation infrastructure.
    Mr. Spear and Mr. Mortimer, the businesses you represent 
depend on reliable, congestion-free roadways and infrastructure 
to spur economic productivity. My State of California recently 
passed a major, major bipartisan transportation bill with two-
thirds vote of our legislature, known as SB-1, and provides $54 
billion in infrastructure investment over the next decade. SB-1 
is paid for with a 12-percent gas tax increase and increased 
fees on energy-efficient cars, since they are not currently 
paying their fair share of use of the highway.
    Do you support the California infrastructure package, SB-1? 
Because there is an effort to repeal the package. And will you 
be opposed to such an effort?
    Mr. Spear. Taking a State-by-State approach is very, very 
difficult for an industry like ours that is interstate 
commerce. The platform that we would propose is very much a 
Federal one, because we move State to State. We are in and out 
of California all the time.
    California does have the luxury of raising the kind of 
revenue needed. Whether we agree with it or not is irrelevant, 
actually, but you do have that ability. Most States don't. In 
fact, over half the States in the United States do not have the 
ability to raise that kind of cash, certainly not the ability 
to administer it.
    There is a Federal role. We don't believe in devolution. We 
think there is a constitutional responsibility of this body, 
this legislative branch, to fulfill when it comes to interstate 
commerce. So we would look at working with State to State by 
having a strong federally funded program and administrative 
capability to ensure that all States have the ability to do it, 
not just California.
    Mrs. Napolitano. Thank you.
    Mr. Mortimer.
    Mr. Mortimer. Yes, Congresswoman. So the U.S. Chamber of 
Commerce, again, like Chris, we are very focused on the Federal 
and the interstate connection there and the interstate 
commerce. That being said, I believe that the California 
chamber and others have been very opposed to any effort to 
repeal that, because my understanding is the California 
business community was the one that helped enact that. So I 
will let them speak for themselves.
    But, again, from our perspective, we are trying to get into 
a situation where we need to modernize our infrastructure. It 
is going to take all the stakeholders, both Federal, State and 
local, to bring more resources to the table. And so we need to 
have that discussion and we need to really think through these 
things.
    Mrs. Napolitano. We addressed that. California took care of 
that.
    Mr. Schroer and Mr. Lewis, the Trump administration's plan 
calls for more State investment, but prohibits State 
governments from setting local hire preferences on 
infrastructure projects. Most taxpayers believe that when they 
are paying for a public transportation project, they should be 
given a preference on jobs associated with the project.
    As representatives of Tennessee and Colorado DOTs, do you 
believe you and other State DOTs should be allowed to set local 
hire preferences for your citizens that are paying for the vast 
majority of the State projects?
    Mr. Schroer. Do you want to take that one? I will be glad 
to answer it. Go ahead.
    Mr. Lewis. Thank you, Congresswoman. I think that there is 
a balance. We have a major project in Colorado right now on 
Interstate 70. It is a $1.2 billion renovation of Interstate 70 
between Denver International Airport and downtown. We were able 
to work with the USDOT and the Federal Highway Administration 
on a pilot program that allowed a percentage of local hire.
    It was very important to the community that--we were a 
disadvantaged community that this project is going through--
that we have a training program and a hire program within that 
affected community. And it was very effective in getting 
support from the community on moving the project forward.
    But I do think that there--so I support that. I think we 
need to be careful not to become islands, because it is the 
United States of America.
    Mrs. Napolitano. Right.
    Mr. Schroer. In Tennessee, we have not pursued that option. 
I will say that we have a lot of work going on. We actually 
have almost full employment in the State of Tennessee, which 
makes a big difference, and also then makes it sometimes 
difficult to man the projects that we are doing. We do 
entertain quotes from outside of the State contractors, and 
they bid as they would normally. And we are a low-bid State, so 
we look at that.
    But I think it is important to know that the cost to bring 
in people from other States to do work is part of the process, 
and our local contractors and workforce actually have a 
competitive price advantage because they are just that local.
    Mrs. Napolitano. Well, Mr. Chair, I have run out of time, 
but I had another question. May I go on?
    This is for Mr. Schroer and Ms. Lee. In addition to 
California passing the $54 billion infrastructure package, the 
county of L.A. has recently passed two transportation 
measures--this is the county--to provide $120 billion in 
infrastructure over the next 40 years. The voters approved it 
by 70 percent. The most recent infrastructure sales tax 
implemented was last year.
    I am concerned that the administration's infrastructure 
plan significantly penalizes State and local governments that 
raised revenues prior to 2018. Not only do States and locals 
that recently passed this infrastructure package score poorly 
when rated by the plan, the administration limits the projects 
to qualify for only 5 percent or $5 billion out of the $800 
billion for new incentive projects.
    Well, we share the concern, and I am sure you would too, 
that the States have done the right thing, and yet they are 
being penalized and should be rewarded instead.
    Ms. Lee. Yes. It seems like it is counterproductive to 
penalize the States that have been able to find the funding and 
be able to move forward and actually make those investments in 
infrastructure. So it seems like this is one of those 
situations where there is no need for the Federal Government to 
weigh in against those States that have been able to find that 
funding.
    Mrs. Napolitano. Thank you.
    Mr. Schroer. So Tennessee is one of those States that have 
passed new revenue. We did it last year. There are 31 States 
that have done that. AASHTO for sure believes that we have to 
be given credit for that. I know the President's package 
supposedly has a clawback provision where credit is given for 
States that have passed laws to increase revenue for the last 
several-year period. We haven't yet seen the formula. We hope 
that that is part of the President's package, if that were to 
pass, so that we get credit for what we have done.
    Mrs. Napolitano. Thank you, sir.
    Thank you, Mr. Chair.
    Mr. Graves of Missouri. Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Being a fellow Californian too, I hate to have to speak 
against my dear colleague there, a very gracious lady, but on 
this gas tax that was foisted upon California taxpayers, road 
users, indeed, it really wasn't bipartisan when only one State 
senator and zero members of the assembly Republicans voted for 
the measure, and that we know already 30 percent off the top of 
it is going to go for things besides the highways. None of it 
will add any extra capacity or any extra lanes.
    So, as the national chamber fellow pointed out, the folks 
that were from business that were in favor of it were those 
that are getting the project work and labor as well. That is 
why the voters are going to have a chance, hopefully, to speak 
on it and have a chance to speak on these increased taxes as 
well, because, you know, if we are talking--if that has already 
happened at the State level and now the Federal level wants to 
double-whammy them with additional gas tax, this affects real 
people out there. You know, if it is going to be $300 to $500 
per household and then another round at the Federal level, real 
people pay for this.
    So what never gets talked about much around here is how do 
we decrease the cost of building a mile of highway or repairing 
a bridge; you know, even our President is talking about that. 
Why does it take so many years to study, permit, and all that? 
So that is where the frustration lies. And when people--you 
know, when people pay at the pump, they believe those dollars 
are going to their highways, yet we know the highway transit 
fund is being used for much urban transit, for trains, for 
buses, things that don't pay back into it.
    So since the trust fund is paying out into several 
different types of things that are nongas transportation and 
many people use these methods, what are ways--and I will throw 
this to Mr. Schroer or Mr. Lewis--we can actually increase the 
share that these other users--you know, we talked about 
electric cars a little bit, OK. Well, California's new law 
doesn't even kick in until I think 2020, and it is only $100 
per electric car to pay into that system. So they are really 
not paying any kind of fair share. It seems to be the focus, to 
me.
    But I would like to hear from you, is a much heavier load 
by the electric cars that are going to be coming more and more 
into play, it seems, especially with the legislature trying to 
ban fossil fuel vehicles by 2040 in California, or we should 
quit directing money to those that are not paying it in the 
mass transit. They should be finding other ways to tax that in 
order to pay their fair share, instead of a so-called highway 
fund not going for highway dollars. Please, Mr. Schroer or Mr. 
Lewis.
    Mr. Schroer. Well, I agree that we should look at--we think 
that everybody who uses the roads ought to pay for their fair 
share. And I think the State of Tennessee has done that in 
their bill. I do think the issue of vehicle miles traveled is 
one of those issues that we are going to have to look at as 
more and more cars become electric or other sources of fuel. It 
is a progression, as we have talked about today.
    I will say on the transit side, I understand there are lots 
of concerns with regard to transit, but I also will tell you 
that if you use transit, you take cars off the highway. And 
when you take cars off the highway, there is less wear and tear 
on those roads. And there is an inconvenience to riding 
transit, much different than having a personal automobile. So 
there is a personal inconvenience that people use----
    Mr. LaMalfa. Well, that completely ignores the rural part 
of the country here where there is no transit between Richvale, 
California, and Montague, California.
    Mr. Schroer. So in Tennessee, Congressman, we fund transit 
in all 95 counties. And so it is an integral part of our rural 
areas to get people to the doctors and hospitals that don't 
have opportunity to transit. So we use that money. Almost all 
that money is Federal dollars, comes from FTA, and we put it to 
good use, and people in our rural counties use it a lot.
    Mr. Lewis. Congressman, I would support everything my 
colleague has said. I think, you know, Colorado is sort of a 
microcosm of the rest of the country, very dense urban areas, 
lots of congestion, but vast parts of the State are open. And 
our State transit system is critical to servicing those rural 
parts of the State, making a connection to the Denver metro 
area for hospital and other services. So it is an integrated 
system, one that is growing in Colorado. And as Mr. Schroer 
said----
    Mr. LaMalfa. Let me touch on Colorado a little bit. How 
have you handled the out-of-State drivers and the drivers that 
are using off-road, private roads, farming, you know, timber 
areas? How has Colorado handled that with its VMT pilot? You 
know, again, out-of-State people aren't going to--how do you 
deal with that?
    Mr. Lewis. Well, again, this was a very small pilot program 
that we did over the course of the last year. And we gave users 
an option to whether to use a GPS way of measuring their 
mileage or just strictly by the odometer. With an odometer 
reading, you don't know where you are driving. You don't know 
what kind of road you are on.
    Mr. LaMalfa. For out-of-staters, though?
    Mr. Lewis. There were no out-of-staters in the system, but 
if you were driving out of the State--and no money was 
collected, this was just a pilot. So if a vehicle was driving 
in Kansas with just an odometer reading, you would be paying 
for the mileage you used in Kansas; whereas, with a GPS, it 
would know you are at the border and you would not be charged 
for that use of the Kansas roadways. You would only be charged 
for the use of the Colorado roadways.
    Mr. LaMalfa. So you have a bureaucratic nightmare for the 
off-roaders or people traveling out of State or you have a 
privacy concern--I think Mr. Spear made a mention--on GPS 
following you around where you are going, right?
    Mr. Lewis. I think the concern about privacy, that is 
something that has been a longstanding concern. It was a 
concern in Oregon when this was first proposed and implemented. 
The people that used in the pilot--and we specifically went to 
folks that were not in favor of a usage tax, a road usage 
charge. They found it very convenient and that their privacy 
concerns were largely overcome. I think all of us----
    Mr. LaMalfa. Really?
    Mr. Lewis. It was. They were.
    Mr. LaMalfa. How did you do that, beat them over the head 
or what?
    Mr. Lewis. No. I think they felt confident that their 
personal data was protected and that they were not----
    Mr. LaMalfa. By this Government?
    Mr. Lewis. Yes.
    Mr. LaMalfa. The people who can't keep your health records? 
I mean, that is funny. I am sorry. But it is an intrusion on 
that. And for the off-roaders, I just see that, you know, the 
easiest thing you do is pay at the pump, right? There are a 
couple different methods you are talking about paying.
    All right. I am over time here, but I haven't gotten any 
closer to being a VMT advocate than I have--thank you, Mr. 
Chairman. I will yield back. Sorry.
    Mr. Graves of Missouri. Mrs. Lawrence.
    Mrs. Lawrence. Thank you.
    I must say this conversation is much, much needed. I can 
tell you my frustration is that we keep talking about it. It is 
amazing how we have consensus that we need to create policy and 
we need to find the funding, but we keep going in a circle.
    To that end, Mr. Lewis, can you briefly describe the 
mileage-based fee system and discuss what challenges await in 
trying to implement such an alternative to gas tax? And if you 
could, while you are talking about that, discuss whether the 
gas tax should be eliminated if the mileage-based fee system is 
implemented.
    Mr. Lewis. Right. Thank you, Congresswoman. There are still 
a number of challenges. I think we have all testified today and 
many of the questions of the committee have centered around the 
existing system that we have today, which is collecting a user 
fee through the form of a gas tax. There is a very robust, more 
than a century-old system of collecting that user fee.
    I think the challenge that we are facing is that in the not 
too distant future, and we can have debates about how far away 
that future is, the more that electric vehicles and other fuel 
vehicles are making up the fleet, we will not be collecting 
those user fees through the existing gas tax. It isn't going to 
happen tomorrow, but it will happen.
    And I think what we have to do is work on a transition plan 
that as the fuel tax becomes less viable, that we already have 
in place a system to replace it. And it isn't going to be, you 
know, midnight on a particular year on December 31 that we 
switch from one to the other. I don't see that as being the 
way. I think there will be a transition, over the course of a 
number of years, in order to move off of the existing fuel. It 
doesn't change the need we have today, and the need we have 
today is very real and the existing system of revenue is what 
we have.
    Mrs. Lawrence. I thank you for that, because I think we 
keep getting caught in what we can't do, what is not happening, 
what is not working, to actually start moving the needle down 
the road. Because cars that don't use fuel is a reality. I am 
from Detroit. It is coming. So I am very intrigued by that.
    Mr. Spear, your testimony makes some strong arguments 
regarding the negative impacts of tolling. You cite that 
expansion of tolling is far more regressive than raising the 
existing user fee. Can you elaborate on the equity and the 
impacts of tolling?
    Mr. Spear. Absolutely. And I appreciate the question. There 
is a lot of talk about public-private partnerships. When we 
speak about roads and bridges, that is really code for tolling.
    Mrs. Lawrence. Yes, it is.
    Mr. Spear. Tolling is only profitable if you have a lot of 
throughput, meaning a lot of people moving through there.
    Mrs. Lawrence. Exactly.
    Mr. Spear. That is only applicable--we could measure that 
very easily as a business model. You can see what is profitable 
and what is not. It is really only applicable on 1 percent of 
the roads and bridges in the United States. So for the rest of 
the country, the 99 percent, it is fake funding. It doesn't 
exist. So it might work in certain venues.
    Mrs. Lawrence. You are preaching to the choir, but thank 
you.
    Mr. Spear. Yeah. Now, it might work in other modes, but 
specific to roads and bridges, we believe that this is not a 
viable solution. And it is extraordinarily regressive, costs up 
to 35 cents on the dollar to collect.
    Our Build America Fund, 20 cents over 4 years, $340 
billion, less than 1 cent on the dollar to administer, is the 
most conservative, immediate, and efficient way to raise 
revenue, and it shores up the trust fund and it is deficit-
neutral.
    Mrs. Lawrence. Another question I wanted to add as kind of 
a comment, when we are looking at a comprehensive plan to fund 
an investment in our infrastructure, the toll and the private-
public partnerships repeatedly come up.
    If we can move something right now, today, the transition 
plan that you talked about, so that we are actually recouping 
funds for the roads, but also as we continue to change the way 
we fuel our vehicles, we have it. Is that something that you 
think that this body--and I am very impressed by your 
diversity. I was a mayor, so I look at how much it costs to 
build a road. I look at the condition, how many people are 
using it. And God help me, when the potholes, which they are 
there now, you get beat down to the ground because of the 
potholes.
    So what is the one thing, if you could just give me that, 
that you think that we can attack right now that we can bring 
forward that you think would get the biggest consensus so that 
we can actually start moving in the right direction?
    Mr. Schroer. I will be happy to--I think we have to address 
the shortfall in the Highway Trust Fund first. I think that is 
what we have to do. I think that is our number one criteria 
today. We have got a recision that we are getting ready to 
face, it is a $8 billion recision that will affect Tennessee 
significantly and as to every other State. If we don't address 
that, then we are not going to get to the core issues that we 
have. And it allows States to put their money on projects that 
they feel are most important to them. I was a mayor as well; I 
understand that.
    And it needs to be as close to the States--a decision on 
those projects needs to be as close to the State as possible. 
And that means it shouldn't be in the Federal Government's 
hands, it should be in the States' hands, working with local 
communities on projects that are most important to them.
    Mrs. Lawrence. Mr. Lewis.
    Mr. Lewis. And I would think that as part of a--if there 
were a funding increase to go forward, I think tying to that 
would be some sort of transition plan. You know, a time-based 
study that would say, based on the saturation into the fleet, 
how quickly could we move to an alternative to the gas tax? 
Because until we put a plan together, it is always the future. 
It is always tomorrow. And it will be tomorrow tomorrow. So I 
think there is some sort of----
    Mrs. Lawrence. I am willing to work with you all. Thank you 
so much.
    I yield back.
    Mr. Graves of Missouri. If there aren't any further 
questions, I want to thank our witnesses for all being here. 
You all gave great testimony. Obviously, this is a very, very 
big problem that we are going to have to tackle. And I think 
you saw the bipartisanship that was displayed here in this 
committee, which we are very proud of on top of that, trying to 
find solutions.
    With that, I would ask unanimous consent that the record of 
today's hearing remain open until such time as our witnesses 
have provided answers to any questions that may have been 
submitted to them in writing, and unanimous consent that the 
record remain open for 15 days for additional comments and 
information submitted by Members or witnesses to be included in 
today's hearing. Without objection, that is so ordered.
    If no other Members have anything to add--and there aren't 
any--this subcommittee stands in adjournment.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                           [all]
                           
                           
    
                                    
</pre></body></html>
